Noo _ _ __

lfn tbe ~uprtmt ~ourt

of tbt 'Wnittb

~tatts

ROYAL DAVIS, GARY MARBUT, TOM HARSCH, TERESA HARSCH,

Applicants,

v.
COREY STAPLETON, in his official capacity as Montana Secretary of State, MONTANA
DEMOCRATIC PARTY, RYAN FILZ, MADELINE NEUMEYER, and REBECCA WEED,

Respondents,

EMERGENCY APPLICATION FOR INJUNCTION
PENDING APPELLATE REVIEW
Directed to the Honorable Elena Kagan
Associate Justice of the United States Supreme Court
And Circuit Justice for the Ninth Circuit
MATTHEW G. MONFORTON
MONFORTON LAw OFFICES, PLLC
32 Kelly Court
Bozeman, Montana 59718
Telephone: (406) 570-2949
matthewmonforton@yahoo.com

Counsel for Applicants

September 11, 2020

TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................................................................... ii
INTRODUCTION ........................................................................................................... 1
JURISDICTION .............................................................................................................. 4
BACKGROUND AND PROCEDURAL HISTORY ....................................................... 5
I.

Rules For Political Parties to Qualify for Montana Primary Elections .... 5

II.

Qualification of the Montana Green Party ................................................. 6

III.

Casting of Ballots by Montana Green Party Voters .................................. 7

IV.

The Lower Court Proceedings ..................................................................... 8

ARGUMENT ................................................................................................................. 10
I.

The Green Voters Face Critical and Exigent Circumstances
Because Montana is About to Invalidate the Green Party As
Well As the Ballots Cast By Its Voters ..................................................... 10

II.

The Green Voters Have an Indisputably Clear Right to Have
Their Ballots Counted ............................................................................... 12

III.

Injunctive Relief Would Aid This Court's Jurisdiction ............................ 17

CONCLUSION .............................................................................................................. 20

11

TABLE OF AUTHORITIES
CASES:

Anderson v. Celebrezze,
460 U.S. 780 (1983) ............................................................................................... 15
Bennett v. Yoshina,
140 F.3d 1218 (9th Cir. 1998) .............................................................................. 19
Chase Natl' Bank v. Norwalk,
291 U.S. 431 (1934) ............................................................................................... 17
Clingman v. Beaver,
544 U.S. 581 (2005) ............................................................................................... 11
Collins v. Harker Heights,
503 U.S. 115 (1992) ............................................................................................... 18
Communist Party of Ind. v. Whitcomb,
409 U.S. 1235 (1972) ............................................................................................. 10
Crosby v. Nat'l Foreign Trade Council,
530 U.S. 363 (2000) ............................................................................................... 18
Dunn v. Blumstein,
405 U.S. 330 (1972) ............................................................................................... 11
Fishman v. Schaeffer,
429 U.S. 1325 (1976) ............................................................................................. 10
FTC v. Dean Foods Co.,
384 U.S. 597 (1966) ............................................................................................... 17
Griffin v. Burns,
570 F.2d 1065 (1st Cir. 1978) .......................................................... 2, 12-13, 15, 16
Harper v. Va. State Bd. of Elections,
383 U.S. 663, 670 (1966) ....................................................................................... 10
Hoblock v. Albany County Bd. of Elections,
422 F.3d 77 (2d Cir. 2005) .............................................................. 2, 12, 13, 15, 16

111

Hoblock v. Albany County Bd. of Elections,
487 F. Supp. 2d 90 (N.D.N.Y. 2006) ..................................................................... 19
Jennings v. Rodriguez,
138 S. Ct. 830 (2018) ............................................................................................... 3
Knick v. Township of Scott,
139 S. Ct. 2126 (2019) ........................................................................................... 17
McClellan v. Carland,
217 U.S. 268 (1910) ............................................................................................... 17
New York v. Kleppe,
429 U.S. 1307 (1976) ............................................................................................. 17
Ohio Citizens for Responsible Energy, Inc. v. Nuclear Regulatory Comm'n,
479 U.S. 1312 (1986) ............................................................................................. 10
Richards v. Jefferson County,
517 U.S. 793 (1996) .......................................................................................... 16-17
Storer v. Brown,
415 U.S. 724 (1974) ............................................................................................... 11
Timmons v. Twin Cities Area New Party,
520 U.S. 351 (1997) ......................................................................................... 15, 16
United States v. Classic,
313 U.S. 299 (1941) ......................................................................................... 11, 17
Wesberry v. Sanders,
376 U.S. 1 (1964) ................................................................................................... 10
Wheaton College v. Burwell,
134 S. Ct. 2806 (2014) ....................................................................................... 4, 18
Williams v. Rhodes,
89 S. Ct. 1 (1968) ................................................................................................... 18
Yick Wo v. Hopkins,
118 U.S. 356 (1886) ............................................................................................... 10

IV

FEDERAL STATUTES
28 U.S.C.
28 U.S.C.
28 U.S.C.
28 U.S.C.
42 U.S.C.
52 U.S.C.

§ 1254(1) ................................................................................................. 5
§ 1292(a)(1) ............................................................................................. 5
§ 1331 ...................................................................................................... 5
§ 1651 ...................................................................................... 4, 5, 10, 17
§ 1983 ...................................................................................................... 5
§ 20302 .................................................................................................... 4

MONTANA CODE ANNOTATED
§ 13-10-301 .............................................................................................................. 7
§ 13-10-601 .................................................................................................... 5,6,11
§ 13-12-201 ............................................................................................................ 14
.§ 13-15-502 .............................................................................................................. 1
§ 13-15-507 ............................................................................................................ 14

v

To the Honorable Elena Kagan, Associate Justice of the United States and
Circuit Justice for the Ninth Circuit:

INTRODUCTION
In March 2020, the Montana Green Party filed a ballot-qualification petition
containing sufficient, valid signatures to qualify for Montana's primary election. The
Party and its voters subsequently participated in the primary, thereby qualifying the
Party's winning candidates for inclusion on the general-election ballot.
But Montana is planning in seven (7) days to begin distributing generalelection ballots from which the names of Green Party nominees have been removed.
This would invalidate every ballot cast during the primary by every Green Party voter
in Montana, including Applicants Tom Harsch and Teresa Harsch.
The Ninth Circuit denied Appellants' emergency motion for an injunction
pending appeal. Relief from this Court is therefore needed to avert an impending
statewide disenfranchisement of Green Party voters.
This case has arisen as a result of a post-election rule created out of thin air by
a state court on August 7, 2020. The state court ruled that a minor party's ballotqualification petition "is not final until votes have been cast and canvassed in the
primary election and certificates of nomination have issued." App. 112.1 The final
canvass occurs 27 days after Election Day. Mont. Code Ann. § 13-15-502. Thus,
under this state-court rule, ballots cast by a minor party's voters are valid only at the
sufferance of the signers of the party's ballot-qualification petition. The rule enables

"Dkt." refers to docket entries in the District Court. "9th Cir Dkt." refers to
Ninth Circuit docket entries. "App." refers to the appendix to this Application.
1

these signers to withdraw their signatures after voting is underway and, indeed, up
to 27 days after Election Day, thereby extinguishing the party, its nominees, and all
primary-election ballots cast by its voters.
No rational election system can function this way. And no voter casting his or
her ballot for Green Party candidates in April or May 2020 could have anticipated
that ballot later being invalidated because (1) a small group of Party petition signers
would subsequently demand to withdraw their signatures and (2) a state court would
create a new rule - months after the election - allowing such withdrawals.
Lower courts have held that a state's mailing of a ballot to an elector is an
inducement to cast it - and a post-election rule change resulting in the ballot's
invalidation violates substantive due process. See, e.g., Hoblock v. Albany County

Bd. of Elections, 422 F.Sd 77,97-98 (2d Cir. 2005) (upholding injunction prohibiting
state officials from certifying county election in which state court had invalidated
absentee ballots subsequent to the election); Griffin v. Burns, 570 F.2d 1065, 1074
(1st Cir. 1978) ("Rhode Island could not, constitutionally, invalidate the absentee and
shut-in ballots that state officials had offered to the voters in this primary, where the
effect of the state's action had been to induce the voters to vote by this means rather
than in person.").
This Court has not considered whether substantive due process is implicated
by a post-election rule change that invalidates lawfully cast ballots.

This case

provides an ideal vehicle to address the issue and differs markedly from the
application denied by this Court two weeks ago in Stapleton v. Montana Democratic

2

Party, et aZ. (Case No. 20A33). The Secretary's application in that case arose from

state court proceedings initiated by the Montana Democratic Party, which sought an
injunction to force the Secretary to remove Green Party candidates from the ballot.
The Secretary unsuccessfully defended the case on state-law grounds, resulting in a
state district court ordering removal of the Green candidates as requested by
Democrats. The Secretary sought relief in the Montana Supreme Court but raised
only state-law issue. 2 That court affirmed on a 5-2 ruling. 9th Cir. Dkt. 2-2. The
Secretary's application to this Court asserted, for the first time, that Montana was
violating the First Amendment rights of the signers of the Green Party's ballotqualification petition. But because the Secretary never presented a First Amendment
claim to Montana courts, and because this Court is a "court of review, not of first
view," Jennings v. Rodriguez, 138 S. Ct. 830, 851 (2018), denial of the Secretary's
application was inevitable.
Unlike that case, this case originated in federal district court when the Green
Party Applicants 3 filed suit days after the state court ordered the Secretary on August
7,2020, to remove Green Party candidates from the ballot. The Green Voters sought
a federal injunction prohibiting the Secretary from removing their nominees from the
ballot. Montana Democrats intervened shortly thereafter. Unlike the Secretary in
Case No. 20A33, the Green Voters presented a federal due process claim to the federal

The Secretary's opening brief to the Montana Supreme Court can be found at 9th
Cir. Dkt. 2-3 and his reply brief to that court is at 9th Cir. Dkt. 15-2.

2

The Applicants shall be hereinafter collectively referred to as the "Green Voters"
unless otherwise dictated by context.

3

3

district court and the Ninth Circuit - the same claim they present now in this
Application. Although the Secretary is a nominal Respondent in this matter, he has
made clear in court filings that he, like the Green Voters, strongly opposes the state
court's eleventh-hour disenfranchisement of Green Party voters.

It is Montana

Democrats who seek these voters' disenfranchisement.
Unfortunately, time is of the essence. The Uniformed and Overseas Citizens
Absentee Voting Act, 52 U.S.C. § 20302(a)(8)(A), requires Montana officials to send
ballots to military and overseas electors by September 18, 2020. The Green Voters
note that the statute contains an exception for delays relating to legal contests, 52
U.S.C. § 20302(g)(2)(B)(ii), and that Montana successfully printed ballots at a later
date in the election cycle four years ago (September 22, 2016) after the untimely death
of a candidate. 9th Cir. Dkt. 14-1 at 3.
That said, relief is needed very soon to avert a statewide disenfranchisement
of Green Party voters. Accordingly, the Green Voters respectfully ask the Court to
enter an injunction against Respondents under the All Writs Act, 28 U.S.C. § 1651,
during the pendency of their appeal.
Finally, at a minimum, the Green Voters request a temporary injunction to
allow for full briefing and consideration of this Application. See, e.g., Wheaton College

v. Burwell, 134 S. Ct. 2898 (2014).

JURISDICTION
The Green Voters filed a verified complaint in federal district court on August
11, 2020, seeking an injunction prohibiting Montana's Secretary of State from

4

removing from the general election ballot the nominees selected by Green Party
voters during Montana's primary. App.57. They fued on that same day a motion for
preliminary injunction and a brief in support of the motion. Dkt. 3 & 4.
The District Court correctly noted that it has subject-matter jurisdiction
pursuant to 28 U.S.C. § 1331 and 42 U.S.C. § 1983 because the Green Voters' claim
under the Due Process CIa use of the Fourteenth Amendment raises a federal
question. App. 17. The District Court denied the motion on August 19, 2020. App.
28. The Green Voters filed a notice of appeal later that day. App.5.
The Ninth Circuit has jurisdiction over the Green Voters' appeal from the
District Court's denial of their motion for a preliminary injunction pursuant to 28
U.S.C. § 1292(a)(l). The Ninth Circuit denied the Green Voters' motion for an
injunction pending appeal on September 8,2020. App. 1-2.
This Court has jurisdiction over the Green Voters' Application under 28 U.S.C.
§ 1254(1) and has authority under 28 U.S.C. § 1651, to grant the relief they seek.

BACKGROUND AND PROCEDURAL HISTORY
I.

Rules For Political Parties to Qualify for Montana Primary Elections
Montana provides two methods by which a political party can qualify for the

ballot. A party qualifies if it had a candidate for statewide office in either of the prior
two general elections who received at least 5% of the vote received by the successful
candidate for governor.

Mont. Code Ann. § 13-10-601(1). The Democratic,

Republican, and Libertarian parties qualify under this rule.

5

Other parties may seek ballot qualification by submitting to the Secretary of
State a petition signed by a number of registered voters equal to 5% or more of the
total votes cast for the successful candidate for governor at the last general election
or 5,000 electors, whichever is less. Mont. Code Ann. § 13-10-601(2)(b). This number
must include registered voters in at least 34 of Montana's 100 legislative districts
equal to 5% or more of the total votes cast for the successful candidate for governor
at the last general election in those districts or 150 electors in those districts,
whichever is less. Id.

II.

Qualification of the Green Party
Montana voters began signing a petition in January 2020 to qualify the Green

Party for the ballot. App. 62,

~31;

App. 39,

~31.

Petition signatures were timely

submitted to election officials by the deadline of March 2,2020. App. 63,

~32.

Of the

19,000 signatures submitted, Montana's Secretary of State found that 13,000 were
valid. Dkt. 18-1 at 2. On March 6,2020, the Secretary publicly announced that the
Green Party had qualified for the ballot. App. 63,

~33;

App. 40,

~33;

Dkt. 15 at 2.

Several qualified Green Party candidates filed nomination papers the following
week, including Appellant Royal Davis, who filed for state Attorney General. App.
63,

~37.

He paid a candidate filing fee of $1,410.23. App. 63,

~38.

Davis had spent

decades working for Democratic candidates for governor prior to filing as a Green
Party candidate.

App. 63,

~~ 40-42.

Appellant Gary Marbut filed as a Green

candidate for a Montana Senate seat. App. 64,

6

~45.

He has run as a Democrat,

Republican, and Independent in prior election cycles, and has sought for decades to
live by his ecological ideals. App. 64-65,

~~47-52.

The press reported on March 24, 2020, that the Montana Republican Party had
financed signature gathering in support of the Green Party's ballot qualification
petition. App. 96-97. Montana Democrats sought to persuade petition signers to
withdraw their signatures. App. 97-98,

~69.

III. Casting of Ballots by Montana Green Party Voters
Montana has an "open" primary system and does not register voters' party
affiliation. Rather, election officials provide to every primary voter a ballot for each
ballot-qualified political party. Mont. Code Ann. § 13-10-301. A voter is free to cast
a primary election ballot for any party and select party candidates listed on that
ballot, but must then discard the ballots for the other parties. Id. Montana's open
primary was conducted entirely by mail this year due to the coronavirus outbreak.
App. 65,

~55;

App. 44,

~55;

Dkt 15 at 3,

~~

4-5.

Election officials mailed ballots to military and overseas voters on April 17,
2020 and the rest of the electorate on May 8, 2020. Dkt. 15 at 3,

~~4-5.

Included

with the ballots were instructions advising voters that the "Postal Service
recommends mail at least one week before the election" and that "Ballots must be
received at the election office by 8 p.m. on Election Day, June 2,2020." Dkt. 1-2.
Appellants Tom Harsch and Teresa Harsch received their ballots shortly after
May 8, 2020. App. 66,

~65.

They each chose a Green Party ballot, marked their

7

selection of candidates, promptly mailed back their ballots, and discarded the other
party ballots. App. 66,

~66.

On election night, vote totals showed that Wendie Fredrickson, the Green
candidate for United States Senator, received 504 votes, compared to 255 votes for
her opponent, and therefore prevailed in the primary. App. 67,

~67.

Appellant Royal

Davis, who was the only candidate seeking the Green Party's nomination for Attorney
General, received 752 votes and is therefore the Green Party nominee for that office.
App. 67,

~68.

Appellant Gary Marbut ran unopposed in the Green Party primary for

Montana Senate District 47. App. 67,

~69.

The Harschs intend to vote for Green

Party candidates in the general election in November 2020. App. 67,

~70.

IV. The Lower Court Proceedings
In late May 2020, the Montana Democratic Party had obtained over 500
requests from persons who had signed the Green Party's ballot qualification petition
to withdraw their signatures. App. 102,

~92.

Democrats filed suit in state court

against the Secretary of State on June 1, 2020, (one day before Election Day) arguing
that the number of remaining Green Party petition signers who had not sought to
withdraw their signatures had fallen below the state's legal threshold. Dkt. 1-3. The
state district court agreed and, on August 7, 2020, ordered that the Secretary of State
and his agents "are enjoined from implementing or giving any effect to the [Green
Party's] Petition." App. 126. The court emphasized, however, that "I heard no
testimony that said the petition itself, the language of the petition itself that was
presented to people to sign was inaccurate or misleading." Dkt. 18-1 at 4.

8

The Secretary of State immediately appealed to the Montana Supreme Court.
The Secretary did not raise any federal claims in that court. 9th Cir. Dkt. 2-3; 9th
Cir. Dkt. 15-2. The Montana Supreme Court affirmed the state court's ruling on a
5-2 vote. 9th Cir. Dkt. 2-2. The Secretary filed an application in this Court on
August 24,2020, which the Court denied on August 25,2020. Case No. 20A33
The Green Voters, who were not parties to the state court action, filed a
complaint against the Secretary in federal district court on August 11, 2020, as well
as a motion for a preliminary injunction that same day. App. 57; Dkt. 3 & 4. The
court granted the Montana Democratic Party's motion to intervene on August 17,
2020. App.30-31. The court denied the Green Voters' preliminary injunction
motion on August 19, 2020. App.28. The Green Voters filed a notice of appeal in
the Ninth Circuit later that day. App.5.
The following morning on August 20, 2020, the Green Voters filed a motion in
the district court for an injunction pending appeal. Dkt. 22. The district court
denied the motion later that morning. App.3-4. Later in the day, the Green Voters
filed an emergency motion in the Ninth Circuit for an injunction pending appeal.
9th Cir. Dkt. 2-1. On August 27,2020, the Montana Green Party moved to
intervene in the appeal in support of the Green Voters. 9th Cir. Dkt. 9.
On September 8,2020, the Ninth Circuit granted the Montana Green Party's
motion to intervene in support of the Green Voters, but denied the Green Voters'
motion for an injunction pending appeal. App. 1-2.

9

ARGUMENT
The All Writs Act, 28 U.S.C. § 1651(a), authorizes an individual Justice or the
Court to issue an injunction when (1) the circumstances presented are "critical and
exigent," (2) the legal rights at issue are "indisputably clear," and (3) injunctive relief
is "necessary or appropriate in aid of [the Court's] jurisdictio[n]." Ohio Citizens for

Responsible Energy, Inc. v. Nuclear Regulatory Comm'n, 479 U.S. 1312 (1986) (Scalia,
J., in chambers) (quoting Fishman v. Schaeffer, 429 U.S. 1325, 1326 (1976) (Marshall,

J., in chambers); Communist Party of Ind. v. Whitcomb, 409 U.S. 1235 (1972)
(Rehnquist, J., in chambers); and 28 U.S.C. § 1651(a» (alterations in original). The
Green Voters recognize that the relief they seek "does not simply suspend judicial
alteration of the status quo but grants judicial intervention that has been withheld
by lower courts," and therefore "demands a significantly higher justification than that
described in [ ] stay cases." Ohio Citizens for Responsible Energy, Inc., 479 U.S. at
1313. The Green Voters satisfy this heightened standard.

I.

The Green Voters Face Critical and Exigent Circumstances Because
Montana is About to Invalidate the Green Party As Well As the
Ballots Cast By Its Voters
The right to vote is a "precious" and "fundamental" right. Harper v. Va. State

Bd. of Elections, 383 U.s. 663, 670 (1966). "Other rights, even the most basic, are
illusory if the right to vote is undermined." Wesberry v. Sanders, 376 U.S. 1, 17

(1964); see also Yick Wo v. Hopkins, 118 U.S. 356, 370 (1886) (finding that the right
to vote is "preservative of all rights"). "[A] citizen has a constitutionally protected
right to participate in elections on an equal basis with other citizens in the

10

jurisdiction." Dunn v. Blumstein, 405 U.s. 330, 336 (1972).
The federal constitutional right of citizens to vote includes the right to "cast
their ballots and have them counted." United States v. Classic, 313 U.S. 299, 315
(1941) (emphasis added). This right applies to both primaries and general elections.

Clingman v. Beaver, 544 U.S. 581, 610 (2005) ("When the State makes the primary
an integral part of the procedure of choice, every eligible citizen's right to vote should
receive the same protection as in the general election."). A state that removes from
the general-election ballot the names of a party's candidates lawfully nominated
during the primary violates this right. A primary is "not merely an exercise or warmup for the general election but an integral part of the entire election process, the
initial stage in a two-stage process by which the people choose their public officers."

Storer v. Brown, 415 U.S. 724, 735 (1974). The very purpose of primary elections is
to determine the candidates who are entitled to general election ballot access as their
party's nominee.

See, e.g., Mont. Code Ann. § 13-10-601(2)(a).

This purpose is

defeated when primary ballots cast by a party's voters - along with the party itselfare extinguished soon after the primary election. This is especially true in an open
primary like Montana's in which Green Party voters sacrificed their right to
participate in a different party primary as a condition to participating in the Green
Party primary.
Montana is scheduled to begin sending ballots to military and overseas electors
no later than September 18, 2020. If the state omits from those ballots the names of
Green Party nominees, the damage to the Green Party voters' fundamental right to

11

vote will be total - and irreparable. The ballots these voters lawfully cast during
Montana's primary in order to place Green Party nominees on general election ballot
will be invalidated.
The only way to prevent this impending statewide disenfranchisement is for
this Court to issue the injunction the Green Voters request. This injunction would
allow both the Ninth Circuit and this Court, if necessary, to review the actions of
Respondents and address the harms suffered by Applicants.

II.

The Green Voters Have an Indisputably Clear Right to Have Their
Ballots Counted
Both the First and Second Circuits have held that voters' rights to substantive

due process are violated when a state mails government-printed ballots to voters, the
voters cast the ballots, and the state subsequently invalidates them.

Hoblock v.

Albany County Bd. of Elections, 422 F.3d 77 (2d Cir. 2005); Griffin v. Burns, 570 F.2d
1065 (1st Cir. 1978). The facts in Griffin and Hoblock are almost identical to those
in this case and illustrate the kind of acts that violate due process.
In Griffin, election officials advertised and issued absentee ballots for use in a
Democratic primary for a vacant city council seat. Griffin, 570 F.2d at 1067. Ten
percent of the electorate opted to vote via absentee ballot. Id. Mter the primary, the
losing candidate contested the absentee ballots in state court, and the Rhode Island
Supreme Court ultimately invalidated them as being unauthorized under state law.

Id. at 1068. Other candidates and voters subsequently flied suit in federal court and
later appealed to the First Circuit. That court analyzed the case as one involving "the

12

constitutional rights of voters who, relying upon official inducements and using
ballots printed and furnished by the state, cast their votes in this primary only to
have them nullified." Id. at 1071. State law issues are not paramount in such cases
because "[t]he right to vote remains, at bottom, a federally protected right. If the
election process itself reaches the point of patent and fundamental unfairness, a
violation of the due process clause may be indicated and relief under § 1983 therefore
in order." Id. at 1077. The court accepted the plaintiffs' claim that the city's primary
was fundamentally unfair:
Rhode Island could not, constitutionally, invalidate the absentee and
shut-in ballots that state officials had offered to the voters in this
primary, where the effect of the state's action had been to induce the
voters to vote by this means rather than in person. The state's action is
said to amount - in result, if not in design - to a fraud upon the absent
voters, effectively stripping them of their vote in the primary.

Id. at 1074.
The Second Circuit in Hoblock relied upon the First Circuit's decision in Griffin
when confronted with a similar invalidation of absentee ballots by a state court. That
case involved election officials sending absentee ballots to electors who had not made
a formal request for such ballots as required by New York law, resulting in a state
court invalidating the ballots. Several electors then brought suit in federal court,
which preliminarily enjoined election officials from certifying the election without
tallying the challenged absentee ballots. The Second Circuit affirmed and held that
the electors were likely to succeed on the merits of their due process claim. Hoblock,
422 F.3d at 97.

13

This case also involves a post-election rule change by a state court that
threatens to disenfranchise a large class of voters who cast ballots by mail. Montana's
Secretary of State publicly announced on March 6, 2020, that the Green Party had
qualified for the ballot. App. 63,

~33;

App. 40,

~33;

Dkt. 15 at 2. The State then

mailed Green Party ballots (along with ballots for the other qualified political parties)
to Montana voters in April and May. Dkt. 15 at 3,

~~4-5.

. Appellants Tom Harsch and Teresa Harsch, along with nearly 800 other
Montana voters, chose Green Party ballots, selected and marked their candidates on
these ballots and, in accordance with Montana law, timely mailed them back to
election officials. App. 66,

~~65-66.

In doing so, they necessarily sacrificed their

right to cast ballots in one of the other party primaries.
In turn, the Harschs and all other Montana voters who selected Green Party
ballots were entitled to rely upon the Secretary of State's pronouncement in March
2020 that the Green Party was ballot qualified and that government-printed Green
Party ballots provided directly by the government could be lawfully cast. And when
they cast their ballots, Green voters were entitled to rely upon state election
procedures in place at that time. For example, they were entitled to rely upon the
State "declar[ing] nominated ... the individual having the highest number of votes
cast for each office." Mont. Code Ann. § 13-15-507. They were also entitled to rely
upon the State certifying the winners of the Green Party primary and preparing
general election ballots accordingly. Mont. Code Ann. § 13-12-201. Instead, on
AugUst 7,2020, months after Montana voters lawfully cast Green Party ballots, a

14

state court ruled that Secretary Stapleton is "enjoined from implementing or giving
any effect to the [Green Party's] Petition." App. 126.
The District Court held that, when casting their ballots, Green Party voters
should have anticipated signers of the Party's ballot-qualification petition being
allowed to subsequently withdraw their signatures and extinguish the Party. App.
23. But Montana's inclusion of Green Party ballots in its mailings to voters in April
and early May was a promise from the State that the Green Party would not later be
arbitrarily invalidated. Griffin, 570 F.2d at 1074 ("the effect of the state's action [in
providing absentee ballots] had been to induce the voters to vote by this means rather
than in person."); Hoblock, 422 F.3d at 98 ("when election officials refuse to tally
absentee ballots that they have deliberately (even if mistakenly) sent to voters, such
a refusal may violate the voters' constitutional rights.").4
The District Court rejected the Green Voters' claims of disenfranchisement
because "States may, and inevitably must, enact reasonable regulations of parties,
elections, and ballots to reduce election- and campaign-related disorder," App. 23,
quoting Timmons v. Twin Cities Area New Party, 520 U.S. 351, 358 (1997), and
"[c]andidates do not have an absolute right to appear on a ballot." App. 23, citing

Anderson v. Celebrezze, 460 U.S. 780, 788 n.9 (1983). But neither Timmons nor
Anderson, both of which involved First Amendment claims, are on point. While the
First Amendment allows states, before ballots are cast, to "enact reasonable

4 The District Court made no reference to Griffin and Hoblock despite the Green
Voters' extensive reliance on those cases in its briefs to the court.
15

regulations of parties, elections, and ballots," Timmons, 520 U.S. 351, 358 (1997), the
Due Process Clause of the Fourteenth Amendment bars states, after ballots are cast,
from changing those regulations if electors are left disenfranchised. Montana is
threatening to do the latter, and this case thus "amount[s] -in result, if not in design
- to a fraud upon the absent voters, effectively stripping them of their vote in the
primary." Griffin, 570 F.2d at 1074.
The District Court further erred by characterizing Montana's impending
invalidation of Green Party ballots as a "garden variety election irregularit[y]." App.
24. The First and Second Circuits have firmly rejected this characterization of mass
invalidations of absentee ballots. Griffin, 570 F.2d at 1068 (state supreme court's
invalidation of 123 absentee ballots cast in city council primary election violated due
process); Hoblock, 422 F.3d at 97 (state court's invalidation of 40 absentee ballots cast
in election for county legislature resulted in voters having a likelihood of success on
their due process claim). The Green Voters have an even stronger due process claim
than those successfully advanced in Griffin and Hoblock because this case involves a
statewide invalidation of absentee ballots - one that affects elections not only for local
offices but state and federal offices as well.
Finally, the District Court faulted the Green Voters for not attempting to
intervene in the state court matter. App.27. But the Montanans who cast Green
Party ballots, most of whom are of modest means, had neither a legal nor an equitable
duty to seek intervention in the state court matter. As this Court has held, "the law
does not impose upon any person absolutely entitled to a hearing the burden of

16

voluntary intervention in a suit to which he is a stranger." Richards v. Jefferson

County, 517 U.S. 793, 800 n.5 (1996), quoting Chase Natl' Bank v. Norwalk, 291 U.S.
431, 441 (1934). This is particularly true for plaintiffs like the Green Voters who
choose to bring their federal constitutional claims to a federal tribunal. Knick v.

Township of Scott, 139 S. Ct. 2126, 2172-73 (2019) ("plaintiffs may bring
constitutional claims under § 1983 without first bringing any sort of state lawsuit,
even when state court actions addressing the underlying behavior are available.").
None of the reasons given by the District Court remotely justify the statewide
disenfranchisement of every Green Party voter in Montana. Instead, these voters
have an indisputably clear right to "cast their ballots and have them counted," United

States v. Classic, 313 U.S. 299, 315 (1941) - and have them counted under the election
rules in place when they cast their ballots.

III. Injunctive Relief Would Aid This Court's Jurisdiction
Issuing an injunction under the All Writs Act in this case would be "in aid of'
this Court's certiorari jurisdiction. 28 U.S.C. § 1651(a). The Court's authority under
the Act "extends to the potential jurisdiction of the appellate court where an appeal
is not then pending but may be later perfected." FTC v. Dean Foods Co., 384 U.S.
597,603 (1966). The Court may issue a writ to maintain the status quo and take
action "in aid of the appellate jurisdiction which might otherwise be defeated."

McClellan v. Carland, 217 U.S. 268, 280 (1910); New York v. Kleppe, 429 U.S. 1307,
1310 (1976) (Marshall, J., in chambers) ("Perhaps the most compelling justification
for a Circuit Justice to upset an interim decision by a court of appeals would be to

17

protect this Court's power to entertain a petition for certiorari before or after the final
judgment of the Court of Appeals.").

This authority certainly applies to cases

involving the impending removal of candidates from the ballot. Williams v. Rhodes,
89 S. Ct. 1 (1968) (Stewart, J., in chambers) (ordering the names of third-party
candidates placed on the ballot pending appeal).
Cases involving circuit splits are ones over which this Court traditionally
assumes jurisdiction. Wheaton College v. Burwell, 134 S. Ct. 2806, 2807 (2014). Cases
raising issues of national importance are also good candidates for review. See, e.g.,

Crosby v. Nat'l Foreign Trade Council, 530 U.S. 363, 371-72 (2000).
There is a potential circuit split regarding the issue of whether a state's
mailing of ballots to electors, followed by a post-election rule change resulting in the
invalidation of those ballots, violates substantive due process under the Fourteenth
Amendment. Both the First Circuit in Griffin and Second Circuit in Hoblock have
answered in the affirmative. By denying the Green Voters' motion for an injunction
pending appeal, the Ninth Circuit has strongly suggested that it disagrees. App. 1-

2.
Review by this Court is also critical because the substantive due process issue
presented in this case is of national importance.

The Court "has always been

reluctant to expand the concept of substantive due process because guideposts for
responsible decisionmaking in this unchartered area are scarce and open-ended."

Collins v. Harker Heights, 503 U.S. 115, 125 (1992). But the lower courts have been
expanding substantive due process for the past several decades when confronted with

18

post-election rule changes that result in voter disenfranchisement. Hoblock, 422 F.3d
at 97; Griffin, 570 F.2d at 1074; see also Bennett v. Yoshina, 140 F.3d 1218, 1226 (9th
Cir. 1998) ("[s]everal appellate courts, including our own, have held that an election
is a denial of substantive due process if it is conducted in a manner that is
fundamentally unfair"). This Court should weigh in for purposes of providing the
bench and bar with guidance as to the circumstances in which post-election rule
changes constitute a violation of substantive due process.
Because ballots are scheduled to begin being sent to electors on September 18,
2020, the Court must act now or it will lose the ability to effectively review this case.
At the very least, a temporary injunction prohibiting the Secretary from sending to
electors ballots without Green Party nominees is appropriate to enable full briefing
by the parties and analysis by this Court. Beyond that, a simple, equitable remedy
would be to restore the status quo ante as it existed prior to the issuance of the state
court's order on August 7, 2020, that enjoined the Secretary from placing Green Party
nominees on the general elections ballot. See Hoblock v. Albany County Bd. of

Elections, 487 F. Supp. 2d 90, 98 (N.D.N.Y. 2006) (unconstitutional invalidation of
absentee ballots prompted court to order New York's election board to "count the
disputed ballots, and certify winners."). The Secretary has already canvassed ballots
and declared the winners for all party primaries, including the Green Party primary.
He simply needs to include the names of the winning Green candidates on the general
election ballot, a task he has not undertaken solely because of the state court's order.
No other remedy is more practical, equitable, or capable of providing meaningful

19

relief to Appellants and all other Green Party voters throughout Montana.

CONCLUSION
For all of the foregoing reasons, Applicants respectfully ask this Court to enter
an injunction against Respondent Secretary of State Corey Stapleton under the All
Writs Act during the pendency of this appeal enjoining him from omitting the names
of Green Party nominees from the general election ballot.
Finally, at a minimum, Applicants request a temporary injunction to allow for
full briefing and consideration of this Application.

DATED: September 11, 2020
Respectfully submitted,
Matthew G. Monforton
MONFORTON LAw OFFICES, PLLC
32 Kelly Court
Bozeman, Montana 59718
Telephone: (406) 570-2949
matthewmonforton@yahoo.com

Attorney for Applicants

20

Noo _ _ __

3ln tbe ~upreme

(!Court of tbe mniteb

~tates

ROYAL DAVIS, GARY MARBUT, TOM HARSCH, TERESA HARSCH,

Applicants,

v.
COREY STAPLETON, in his official capacity as Montana Secretary of State, MONTANA
DEMOCRATIC PARTY, RYAN FILZ, MADELINE NEUMEYER, and REBECCA WEED,

Respondents,

APPENDIX TO EMERGENCY APPLICATION FOR INJUNCTION
PENDING APPELLATE REVIEW

Directed to the Honorable Elena Kagan
Associate Justice of the United States Supreme Court
And Circuit Justice for the Ninth Circuit
MATTHEW G. MONFORTON
MONFORTON LAw OFFICES, PLLC
32 Kelly Court
Bozeman, Montana 59718
Telephone: (406) 570-2949
Facsimile: (406) 551-6919
matthewmonforton@Yahoo.com

Counsel for Applicants

September 11, 2020

TABLE OF CONTENTS
Ninth Circuit Order Denying the Green Voters' Emergency Motion
For Injunction Pending Appeal and Granting Intervention by the
Montana Green Party (September 8, 2020) ........................................................ App. 1
District Court Order Denying Green Voters' Motion for Injunction
Pending Appeal (August 20, 2020) ........................................................................ App. 3
The Green Voters' Notice of Appeal (August 19, 2020) ....................................... App. 5
District Court Order Denying Green Voters' Motion for Preliminary
Injunction (August 19, 2020) ................................................................................ App. 9
District Court Order Granting Intervention by the Montana
Democratic Party (August 14, 2020) ................................................................... App. 30
Answer of the Montana Democratic Party (August 13, 2020) ........................... App. 32
The Green Voters' Verified Complaint (August 11, 2020) ................................. App. 57
State Court Order Enjoining Secretary of State from Placing
Winning Candidates of the Green Party Primary on the General
Election Ballot (August 7, 2020) ......................................................................... App. 78

Case: 20-35734, 09/08/2020, ID: 11815361, DktEntry: 18, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
SEP 8 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ROYAL DAVIS; et al.,
Plaintiffs-Appellants,

No. 20-35734
D.C. No. 6:20-cv-00062-DLC
District of Montana, Helena

v.
ORDER
COREY STAPLETON, in his official
capacity as Montana Secretary of State,
Defendant-Appellee,
and
MONTANA DEMOCRATIC PARTY, a
Montana domestic nonprofit corporation; et
al.,
Intervenor-DefendantsAppellees.
Before: O’SCANNLAIN, RAWLINSON, and CHRISTEN, Circuit Judges.
Defendant-appellee’s motion to file an addendum to his response to
appellants’ motion for injunctive relief (Docket Entry No. 14) is granted. The
addendum has been filed.
Appellants’ emergency motion for injunctive relief (Docket Entry No. 2) is
denied.

App. 1

Case: 20-35734, 09/08/2020, ID: 11815361, DktEntry: 18, Page 2 of 2

The motion to intervene by proposed intervenors The Montana Green Party
and the Howie Hawkins 2020 presidential campaign in support of appellants
(Docket Entry No. 9) is granted.
Appellants’ opening brief and excerpts of record remain due not later than
September 16, 2020. Intervenors’ opening brief is due within 14 days after service
of appellants’ opening brief. Defendant-appellee and intervenor-appellees’
answering briefs remain due October 14, 2020, or 28 days after service of
appellants’ opening brief, whichever is earlier. Appellants’ optional reply brief is
due within 21 days after service of the last-served answering brief. See 9th Cir. R.
3-3(b), 28-5.

App. 2

Case 6:20-cv-00062-DLC Document 24 Filed 08/20/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
HELENA DIVISION

ROYAL DAVIS, GARY MARBUT,
TOM HARSCH, and THERESA
HARSCH,

CV 20–62–H–DLC

Plaintiffs,

ORDER

vs.
COREY STAPLETON, in his official
capacity as Montana Secretary of State,
Defendant
And
MONTANA DEMOCRATIC PARTY,
a Montana domestic nonprofit
corporation, RYAN FILZ, MADELINE
NEUMEYER, and REBECCA WEED,
individual electors,
IntervenorDefendants.
Plaintiffs have filed an emergency motion for injunction pending appeal.
(Doc. 22.)

-1-

App. 3

Case 6:20-cv-00062-DLC Document 24 Filed 08/20/20 Page 2 of 2

For the reasons given in this Court’s order denying Plaintiffs’ previous
motion for a temporary restraining order or preliminary injunction, the motion is
DENIED.
DATED this 20th day of August, 2020.

-2-

App. 4

Case 6:20-cv-00062-DLC Document 21 Filed 08/19/20 Page 1 of 4

Matthew G. Monforton (Montana Bar # 5245)
Monforton Law Offices, PLLC
32 Kelly Court
Bozeman, Montana 59718
Telephone: (406) 570-2949
E-mail:
matthewmonforton@yahoo.com
Attorney for Plaintiffs
UNITED STATES DISTRICT COURT
DISTRICT OF MONTANA
HELENA DIVISION
ROYAL DAVIS, GARY MARBUT, TOM
HARSCH, TERESA HARSCH,

)
)
)
Plaintiffs,
)
v.
)
)
COREY STAPLETON, in his official capacity )
as Montana Secretary of State,
)
)
Defendant.
)
)
and
)
)
MONTANA DEMOCRATIC PARTY, et al., )
)
Intervenor-Defendants.
)
)

Case No. CV 20-62-H-DLC
NOTICE OF APPEAL
PRELIMINARY INJUNCTION
APPEAL

TO THE CLERK AND ALL PARTIES OF RECORD:
PLEASE TAKE NOTICE THAT Plaintiffs hereby appeal to the United
States Court of Appeals for the Ninth Circuit from an order denying their Motion
for a Temporary Restraining Order and Preliminary Injunction on August 19, 2020.

1

App. 5

Case 6:20-cv-00062-DLC Document 21 Filed 08/19/20 Page 2 of 4

Plaintiffs’ Representative Statement is attached to this Notice as required by Ninth
Circuit Rule 3-2(b).
DATED: August 19, 2020

Respectfully submitted,
/s/ Matthew G. Monforton
Matthew G. Monforton
Attorney for Plaintiffs

2

App. 6

Case 6:20-cv-00062-DLC Document 21 Filed 08/19/20 Page 3 of 4

REPRESENTATION STATEMENT
Counsel for Plaintiffs-Appellants:
Matthew G. Monforton
Monforton Law Offices, PLLC
32 Kelly Court
Bozeman, Montana 59718
Telephone: (406) 570-2949
Facsimile: (406) 551-6919
matthewmonforton@yahoo.com
Counsel for Defendant-Appellee Secretary of State Corey Stapleton
Austin James
Chief Legal Counsel, Secretary of State’s Office
P.O. Box 202801
Helena, MT 59620-2801
406-444-2034
Austin.James@mt.gov
Counsel for Intervenor-Defendants:
Peter M. Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
Telephone: 406.442.8670
Mike@meloylawfirm.com
Matthew P. Gordon,
Kevin J. Hamilton,
PERKINS COIE LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101-3099
Telephone: 206.359.8000
Facsimile: 206.359.9000
MGordon@perkinscoie.com
KHamilton@perkinscoie.com

3

App. 7

Case 6:20-cv-00062-DLC Document 21 Filed 08/19/20 Page 4 of 4

CERTIFICATE OF SERVICE
I HEREBY CERTIFY this 19th day of August, 2020, that a copy of the
foregoing will be delivered this day to all parties via the Court’s ECF system.

DATED: August 19, 2020

Respectfully submitted,
/s/ Matthew G. Monforton
Matthew G. Monforton
Attorney for Plaintiffs

4

App. 8

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 1 of 21

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
HELENA DIVISION

ROYAL DAVIS, GARY MARBUT,
TOM HARSCH, and THERESA
HARSCH,
Plaintiffs,

CV 20–62–H–DLC

ORDER

vs.
COREY STAPLETON, in his official
capacity as Montana Secretary of State,
Defendant
And
MONTANA DEMOCRATIC PARTY,
a Montana domestic nonprofit
corporation, RYAN FILZ, MADELINE
NEUMEYER, and REBECCA WEED,
individual electors,
IntervenorDefendants.
This lawsuit, filed on August 11, 2020, alleges a violation of voters’ and
political candidates’ federal due process rights. Plaintiffs comprise two candidates
for state office, Royal Davis and Gary Marbut, and two voters, Tom Harsch and

App. 9

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 2 of 21

Theresa Harsch. Davis and Marbut are running as Green Party candidates 1 for the
offices of, respectively, Montana Attorney General and State Senator. Tom Harsch
and Theresa Harsch are voters who cast ballots in the 2020 Montana Green Party
primary. (Doc. 1 at 2.)
Plaintiffs also filed a motion for a preliminary injunction and temporary
restraining order on August 11, 2020. (Doc. 4.) They seek relief on or before
August 20, 2020, the date by which Defendant, Montana Secretary of State Corey
Stapleton, must certify ballots for the 2020 general election. Secretary Stapleton
does not express an opinion as to the relief sought by Plaintiffs, stating only that he
“will fully comply with the ultimate [judgment] of this court regarding the merits
of this case.” (Doc. 15 at 4.)
The Montana Democratic Party and voters Ryan Filz, Madeline Neumeyer,
and Rebecca Weed moved to intervene in this lawsuit (Doc. 8), and the Court
granted their motion (Doc. 11). Filz, Neumeyer, and Weed signed a petition to
qualify Green Party candidates for the 2020 general ballot, but they later moved to

1

As detailed elsewhere in this Order, the legitimacy of Davis’s and Marbut’s Green Party
affiliation is disputed. The Court notes that it does not believe Davis and Marbut sought
candidacy in bad faith, although it appears to be undisputed that the Montana Green Party does
not recognize either candidate as a member or provide an endorsement. See infra p. 6–8.

App. 10

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 3 of 21

withdraw their signatures. (Doc. 9 at 14, 16.) Intervenor-Defendants vigorously
oppose the relief sought by Plaintiffs. (Doc. 16.)
The Montana Republican Party (“MTGOP”) has filed an amicus brief in
support of Plaintiffs. (Docs. 12-1, 13.) The Court addresses its arguments where
helpful throughout this Order.
The Court denies Plaintiffs’ motion, finding that Plaintiffs are not entitled to
the “extraordinary remedy” of a preliminary injunction or temporary restraining
order. Winter v. Nat. Res. Def. Council, 555 U.S. 7, 24 (2008).
BACKGROUND 2
I.

Legal Background

The Green Party has not “had a candidate for statewide office in either of the
last two general elections who received a total vote that was 5% of more of the
total votes cast for the most recent successful candidate for governor.” Mont.
Code Ann. § 13-10-601(1). Accordingly, it did not automatically have the option
to “nominate its candidates for public office . . . by a primary election” for the
2020 general election ballot.
2

Because this matter is proceeding on a highly expedited schedule, the Court is unable to decide
this matter on a full record. It generally relies on the state district court’s factual findings in
Montana Democratic Party v. Montana, No. DDV-2020-856 (Aug. 7, 2020 Mont. 1st Jud. Dist.
Court, Lewis & Clark Cty.), but it has made best efforts to clarify when facts are legitimately in
dispute in the parallel state court proceeding. Most notably, the Court does not adopt any finding
that the MTGOP violated state campaign finance law or engaged in fraud.

App. 11

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 4 of 21

Under Montana law, the Green Party could nonetheless qualify for access to
the general ballot “by presenting a petition . . . requesting the primary election.”
Mont. Code Ann. § 13-10-601(2)(a). To succeed,
The petition must be signed by a number of registered voters equal to
5% or more of the total votes cast for the successful candidate for
governor at the last general election or 5,000 electors, whichever is less.
The number must include the registered voters in more than one-third
of the legislative districts equal to 5% or more of the total votes cast for
the successful candidate for governor at the last general election in
those districts or 150 electors in those districts, whichever is less.
Mont. Code Ann. § 13-10-601(2)(b). Montana has 100 legislative districts, and so
the petition was required to include both: (1) 5,000 or more signatures 3; and (2) a
sufficient number of signatures in at least 34 districts, the minimum number
required to meet the threshold of “more than one-third of the legislative districts.”
Mont. Code Ann. § 13-10-601(2)(b). (Doc. 1-4 at 5.) There is no statute setting
forth a procedure by which signers may withdraw their signatures. (Doc. 1-4 at
14–15.)
II.

The State Court Proceeding

Intervenor-Defendants sued Secretary Stapleton in state court on June 1,
2020, just prior to the primary election, seeking to block Green Party candidates

3

The successful candidate for governor in 2016, Steve Bullock, received 255,933 votes. Mont.
Sec’y of State, Official Election Results, https://sosmt.gov/elections/results/. Five percent of the
votes received therefore is significantly greater than 5,000.

App. 12

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 5 of 21

from appearing on the ballot. (Doc. 1-4.) Plaintiffs were not parties to that matter;
although Plaintiff Gary Marbut filed a pro se motion to intervene, the motion was
denied as untimely. (Docs. 9 at 110–12 & 12-2 at 58–59.)
The state district court held a two-day evidentiary hearing in mid-July.
(Doc. 1-4 at 4.) On August 7, 2020, the court entered its findings of fact and
conclusions of law. It ordered that Secretary Stapleton must give effect to the
signature withdrawal requests. (Doc. 1-4 at 49.) With the signatures withdrawn,
the district court concluded that “the petition does not satisfy the requirement that
the signatures come in sufficient numbers from at least 34 different legislative
House Districts.” (Doc. 1-4 at 49.) Thus, absent injunctive relief from this Court
or a reversal by the Montana Supreme Court, the Green Party will not appear on
the 2020 general ballot.
Secretary Stapleton immediately appealed the district court order, and his
appeal is currently pending before the Montana Supreme Court, Mont. Democratic
Party v. Stapleton, No. DA 20-396 (filed Aug. 7, 2020). That appeal is proceeding
on an expedited briefing schedule parallel to that which has been set by this Court.
Order, Mont. Democratic Party v. Stapleton, No. DA 20-0396 (Aug. 11, 2020).

App. 13

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 6 of 21

III.

Factual & Procedural Background

The Green Party did not make an organized attempt to gain ballot access for
the 2020 general election. (Doc. 1-4 at 7.) However, someone else did. (Doc. 1-4
at 5–6.) Advanced Micro Targeting, a Texas-based petition signature gathering
firm, hired and paid individuals to gather signatures in support of ballot access;
these individuals began canvassing the state in early 2020. (Doc. 1-4 at 5–6.) At
the time, the public was unaware of who was paying for the drive. (Doc. 1-4 at 5–
7, 11.)
The petition was successful, and nearly all of the signatures eventually
turned in were collected by mid-February. (Doc. 1-4 at 6.) However, funding for
the petition remained unknown. (Doc. 1-4 at 6.) The Montana Green Party
attempted, through its Facebook page, to notify members that it had taken no part
in the effort, posting:
We have been receiving notice that there are people falsely collecting
information on behalf of the Green Party. As of the moment, we are
still in a legal battle 4 against the state of MT, and in such a state are not
collecting, nor have we hired or asked for volunteers to collect
information this 2020 cycle. . . As of now, we have no house senate or
state office candidates running for the 2020 election, at least until the
4

The Court assumes that the reference to a “legal battle” pertains to a lawsuit filed in the District
of Montana, Montana Green Party v. Stapleton, ___ F. Supp. 3d ___, 2020 WL 1316816 (D.
Mont. March 20, 2020). In that case, which is now on appeal to the Ninth Circuit, the Montana
Green Party alleged that the petition-gathering statutory scheme unconstitutionally bars access to
the ballot. The district court rejected the argument, granting summary judgment to the state.

App. 14

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 7 of 21

lawsuit reaches resolution. Any individual acting in rude or suspicious
behavior claiming to be collecting information on our behalf is not
affiliated with our name and mission.
(Doc. 1-4 at 6–7 (ellipses in original).) As a local journalist said on the radio on
February 21, “[I]n the realm of shenanigans, some unknown group has gathered
signatures and collected petitions around the state to qualify the Green Party for the
ballot, a move that is seen as possibly helping Republican candidates. . . . [W]ho is
it?” (Doc. 1-4 at 8.)
Secretary Stapleton certified the petition on March 6, 2020, finding that it
met the requirements of Montana Code Annotated § 13-10-601. It was not until
two and a half weeks later, on March 24, 2020, that journalists were able to follow
the money trail. (Doc. 1-4 at 18.) The MTGOP had paid for the signature drive, in
part through a shell group named “Montanans for Conservation,” funded solely by
the MTGOP. (Doc. 1-4 at 18–20.)5 The MTGOP had contracted with Advanced

5

The MTGOP disputes any suggestion that the difficulty in determining who funded the drive
was attributable in part to noncompliance with Montana election law. (Doc. 12-1.) The Court
expresses no opinion on this issue, although it notes that the campaign finance law allegedly
violated arose from a 2018 signature drive with marked factual similarities to that which gave
rise to this proceeding. See Larson v. Montana ex rel. Stapleton, 434 P.3d 241 (2019). In 2018,
the Green Party was able to round up only approximately 700 signatures in support of access to
the 2018 general ballot, but Advanced Micro Targeting collected an additional 9,461. Id. at 248.
It was unclear then, too, who paid Advanced Micro Targeting. As a result, the Montana
Legislature passed SB 363 in 2019, adding reporting, disclosure, and registration requirements
for entities spending money to qualify minor parties for ballot access. Mont. Code Ann. §§ 1337-601 through 13-37-607.

App. 15

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 8 of 21

Micro Targeting, a Texas-based petition signature gathering firm, to send paid
signature gatherers throughout Montana. (Doc. 1-4 at 18–20.)
After learning what had occurred, The Montana Democratic Party made
efforts to notify petition-signers of the MTGOP’s involvement in the drive and to
assist interested signers in withdrawing their signatures. (Doc. 1-4 at 20–24.) 562
petition-signers submitted requests for withdrawal prior to the primary election, but
Secretary Stapleton did not honor all of the requests. (Doc. 1-4 at 25, 30.)
The Montana Green Party disclaimed the candidates running under its
banner, posting an update to its Facebook page:
This is to confirm, for those considering voting for the Green Party in
the primaries, none of those running under the Montana Green Party
ticket this season are actual Greens as far as we can tell. They have not
been involved in Montana Green Party activities. Before voting for any
of them, it would be wise to ask them to account for their belief in a
platform, especially the Green Party requirement that we not take any
corporate dollars.
(Doc. 9 at 88.) Ultimately, Green Party primary ballots were mailed 6 to voters, 7
and approximately 800 were returned. (Doc. 1 at 4.)
6

Montana held an all-mail primary on June 2, 2020. See Eric Dietrich, Counties Will Have
Option to Conduct All-mail Elections in November, August 6, 2020. Montana holds open
primaries; all primary ballots are offered to each voter, regardless of the voter’s registration
status. The voter must select which ballot to complete, as she may return only one party’s ballot.
See Ravalli Cty. Republican Cent. Comm. v. McCulloch, 154 F. Supp. 3d 1063, 1065 (D. Mont.
2015).
7
Montana law requires the Secretary of State to determine whether a primary is necessary,
dependent upon the number of individuals who declare as candidates. Mont. Code Ann. § 13-10-

App. 16

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 9 of 21

JURISDICTION
Plaintiffs argue that, because it brought suit under 42 U.S.C. § 1983, “this
Court has jurisdiction notwithstanding the general prohibition contained in the
Anti-Injunction Act, 28 U.S.C. § 2283, against federal injunctions staying
proceedings in state courts,” citing Mitchum v. Foster, 407 U.S. 225, 243 (1972).
(Doc. 4 at 11). The Court is reluctant to exercise jurisdiction while the appeal of
the state court order is pending before the Montana Supreme Court. For one thing,
the Montana Supreme Court could, at any time, issue a ruling mooting this
controversy. And, for another, this Court’s decision could disrupt a matter of
significant importance to the State. However, the Court’s reluctance does not
override jurisdiction.
Intervenor-Defendants argue that the Court lacks jurisdiction under
Pennhurst State School & Hospital v. Halderman, 465 U.S. 89, 106 (1984).
Pennhurst, grounded in the Eleventh Amendment, provides that federal courts may
not “instruct[] state officials on how to conform their conduct to state law.” Id.
Pennhurst does not bar jurisdiction in this matter. Plaintiffs allege that, by
operation of the state court order entered August 7, 2020, their federal

209. Because two candidates declared for the U.S. Senate race, the determination was made that
a Green Party primary was necessary. Id.

App. 17

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 10 of 21

constitutional rights will be violated. The Court has not been called on to interpret
state law or to tell Secretary Stapleton how to fulfill his official role; it is asked
only to determine whether the Constitution will be violated if Secretary Stapleton
complies with the district court order currently in effect (and, of course, with which
Intervenor-Defendants agree). The pending appeal of that ruling to the Montana
Supreme Court certainly adds a procedural wrinkle. But it does not alter that
Plaintiffs ask the Court to “vindicate federal rights and hold state officials
responsible to ‘the supreme authority of the United States,’” not to order Secretary
Stapleton to appropriately fulfill his duties under state law. Pennhurst State Sch.
Hosp., 465 U.S. at 105 (quoting Ex parte Young, 209 U.S. 123, 160 (1908)).
Whether Plaintiffs have actually alleged an infringement of a federal constitutional
right is a separate question, and it is analyzed under the first Winter factor below.
ABSTENTION
Intervenor-Defendants next argue that, even if this Court may exercise
jurisdiction, it should nonetheless abstain under the Pullman doctrine. “The reign
of law is hardly promoted if an unnecessary ruling of a federal court is thus
supplanted by a controlling decision of a state court.” R.R. Comm’n of Tex. v.
Pullman Co., 312 U.S. 496, 500 (1941). Abstention is therefore appropriate
“[w]here there is an action pending in state court that will likely resolve the state-

App. 18

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 11 of 21

law questions underlying the federal claim.” Harris Cty. Comm’rs Ct. v. Moore,
420 U.S. 77, 83 (1975). “Pullman abstention does not exist for the benefit of either
of the parties but rather for ‘the rightful independence of the state governments and
for the smooth working of the federal judiciary.” San Remo Hotel v. City &
County of S.F., 145 F.3d 1095, 1105 (quoting Pullman, 312 U.S. at 501).
“Pullman abstention is appropriate only when three concurrent criteria are
satisfied: (1) the federal plaintiff’s complaint must require resolution of a sensitive
question of federal constitutional law; (2) that question must be susceptible to
being mooted or narrowed by a definitive ruling on state law issues; and (3) the
possibly determinative state law must be unclear.” United States v. Morros, 268
F.3d 695, 703–74 (9th Cir. 2001). “Because the federal courts’ obligation to
adjudicate claims within their jurisdiction is ‘virtually unflagging,’ abstention is
permissible only in a few ‘carefully defined’ situations with set requirements.” Id.
at 703.
The Court agrees that the principle of comity underlying the Pullman
doctrine supports abstention, but it nonetheless finds that Pullman is not a perfect
fit. First, the Court assumes without deciding that the complaint raises “a sensitive
question of federal constitutional law,” even though—as addressed below under

App. 19

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 12 of 21

the first Winter factor—that question is unlikely to be resolved in Plaintiffs’ favor.
Id.
Second, this proceeding could be mooted by a ruling by the Montana
Supreme Court. However, there is also a current, operative ruling on the state law
issues. Further, there is no guarantee (although there is every indication) that the
appeal will be decided prior to August 20, 2020, on which date Plaintiffs’
constitutional rights will allegedly be irrevocably infringed. And, in the event that
the Montana Supreme Court affirms the district court—which, of course,
Intervenor-Defendants hope comes to pass—this controversy will remain very
much alive, and the deadline for ballot certification will remain in place.
Third, the “possibly determinative state law [is not] unclear.” Id. The trial
court ruling currently is in effect and will remain so unless and until the Montana
Supreme Court issues a reversal or vacatur.
The Court notes that it would be somewhat more inclined to abstain if the
Winter factors were indifferent to the principles of comity that counsel in favor of
abstention. But, because Winter demands consideration of the equities and the
public interest, the test is expansive enough to allow for a full consideration of the
Court’s appropriate role in our federalist system. Given the procedural posture of
this just-filed case, the Court’s denial of Plaintiffs’ motion for emergency

App. 20

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 13 of 21

injunctive relief is not meaningfully different from a decision to abstain. Thus, the
Court will consider whether Plaintiffs are entitled to the relief sought.
LEGAL STANDARD
Whether a plaintiff seeks a temporary restraining order or preliminary
injunction, the standard is the same. Stuhlbarg Intern. Sales Co. v. John D. Brush
& Co., 240 F.3d 832, 839 n.7 (9th Cir. 2001). The plaintiff must show: (1) “that he
is likely to succeed on the merits”; (2) “that he is likely to suffer irreparable harm
in the absence of preliminary relief”; (3) “that the balance of equities tips in his
favor”; and (4) “that an injunction is in the public interest.” Winter, 555 U.S. at 20.
Under Ninth Circuit law, “a stronger showing of one element may offset a weaker
showing of another.” HiQ Labs, Inc. v. Linkedin Corp., 938 F.3d 985, 992 (9th Cir.
2019) (quoting Alliance for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1131 (9th
Cir. 2011)). “So, when the balance of equities tips sharply in the plaintiff’s favor,
the plaintiff need demonstrate only ‘serious questions going to the merits.’” Id.
(quoting Cottrell, 632 F.3d at 1131).
I.

Likelihood of Success on the Merits

Plaintiffs allege that the relief ordered by the state district court on August 7,
2020 violates their Fourteenth Amendment right to substantive due process
because the election was “conducted in a manner that is fundamentally unfair.”

App. 21

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 14 of 21

Bennett v. Yoshina, 140 F.3d 1218, 1226 (9th Cir. 1988). The Fourteenth
Amendment guarantees that “[n]o state shall . . . deprive any person of life, liberty,
or property, without due process of law.” U.S. Const. amend. XIV. IntervenorDefendants attack Plaintiffs’ claim at its foundation, arguing that Plaintiffs have
failed to allege a violation of their Fourteenth Amendment rights. The Court is not
unsympathetic to this argument, but in the interest of a full consideration of
Plaintiffs’ motion, it addresses whether Plaintiffs are likely to succeed on their
claim that a failure to place Green Party candidates on the general ballot would be
“fundamentally unfair.” Bennett, 140 F.3d at 1226.
Bennett provides a framework by which an election or procedure may be
declared invalid; “a court will strike down an election on substantive due process
grounds if two elements are present: (1) likely reliance by voters on an established
election procedure and/or official pronouncements about what the procedure will
be in the coming election; and (2) significant disenfranchisement that results from
a change in the election procedures.” Id. at 1226–27. Plaintiffs argue that they
relied on Montana’s petition process and that a “significant disenfranchisement”
will result if the candidates selected in the Green Party primary are not placed on
the general ballot. The Court disagrees on both points.

App. 22

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 15 of 21

Under the first Bennett prong, the question is whether there is an
“unforeseeable departure from past election practices”—an “unfair” “surprise.” Id.
at 1225–26. Here, there was no such departure because Montana voters did not
“rel[y] on an established election procedure.” Id. at 1226. Before this case, there
was no clear procedure by which signers supporting ballot access could withdraw
their signatures, likely because there was no precedent for a situation in which
signers would seek to withdraw their signatures en masse.8 Voters did not
reasonably rely on the absence of a procedure for signature withdrawal as decisive
proof that signatures cannot be withdrawn.
Nor, even if there had been “reliance” and “a change in the election
procedures,” would the Court find anything approaching “significant
disenfranchisement” here. Id. at 1226–27. “States may, and inevitably must, enact
reasonable regulations of parties, elections, and ballots to reduce election- and
campaign-related disorder.” Timmons v. Twin Cities Area New Party, 520 U.S.
351, 358 (1997). Candidates do not have an absolute right to appear on a ballot.
See Anderson v. Celebrezze, 460 U.S. 780, 788 n.9 (1983) (“The State has the
8

Relevant to the state court proceeding, but not here, are questions regarding whether Secretary
Stapleton imposed the wrong standards on potential withdrawers, including his obligation to
accept signatures verified by DocuSign during a pandemic. It would be improper for the Court
to weigh in on any such questions under Pennhurst, see supra p. 9, and the Court addresses only
whether Secretary Stapleton, in complying with the state court ruling, will violate voters’
Fourteenth Amendment rights.

App. 23

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 16 of 21

undoubted right to require candidates to make a preliminary showing of substantial
support in order to qualify for a place on the ballot.”) And voters do not have an
“absolute right to support a specific candidate regardless of whether he or she has
satisfied reasonable eligibility requirements.” Stiles v. Blunt, 912 F.2d 260, 266
(8th Cir. 1990); see also Rosario v. Rockefeller, 410 U.S. 752 (1973) (upholding
state law limiting right to participate in primary to those who meet deadline).
The due process clause is unconcerned with “garden variety election
irregularities.” Bennett, 140 F.3d at 1226. At the very most, that is what Plaintiffs
have suffered; this case does not present “the long-odds exception to the rule of
nonintervention.” Bonas v. Town of N. Smithfield, 265 F.3d 69, 75–76 (1st Cir.
2001); see also League of Women Voters of Ohio v. Brunner, 548 F.3d 463, 478
(6th Cir. 2008) (“The Due Process Clause is implicated, and § 1983 relief is
appropriate, in the exceptional case where a state’s voting system is fundamentally
unfair.”).
For its part, Amicus MTGOP argues that the Court must apply strict scrutiny
because the state court’s action threatens the fundamental right to vote. (Doc. 12-1
at 3–4.) However, they cite to nothing which suggests that a party need only allege
a violation of voting rights to get to strict scrutiny. And such a rule would

App. 24

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 17 of 21

immediately call into doubt any number of state election schemes, not to mention
decades of settled precedent.
MTGOP further contends that the state district court ruling violates the
federal constitution because that court denied its motion to intervene. Whether the
state court erred in denying MTGOP’s motion to intervene is a matter for the
Montana Supreme Court to suss out; the federal court is generally indifferent to a
state court’s administration of its own docket.
Plaintiffs have not shown a likelihood of success on the merits, defeating
their motion. The Court nonetheless addresses the remaining Winter factors.
II.

Likelihood of Irreparable Harm

“[U]nlike monetary injuries, constitutional violations cannot be adequately
remedied through damages.” Stormans, Inc. v. Selecky, 586 F.3d 1109, 1138 (9th
Cir. 2009. “[O]nce [an] election occurs, there can be no do-over and no redress.”
League of Women Voters of N.C. v. North Carolina, 769 F. 3d 224, 247 (4th Cir.
2014). Because both sides of this litigation have significant interests at stake, the
Court finds that both face potential irreparable harm.
Certification must take place on August 20, 2020. When the ballots are
certified, the Green Party candidates will either appear on the ballot or not. If they
do, then petition signers who moved to withdraw their signatures will see their

App. 25

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 18 of 21

withdrawal requests go unhonored, and the Democratic Party and its voters may
see votes for Democratic candidates siphoned by seemingly progressive candidates
who would not be on the ballot but for the efforts of the MTGOP. On the other
hand, if the Green Party candidates are not there, approximately 800 Montanans
who voted in the primary will have missed the opportunity to vote in another
party’s primary.
The Court finds that Plaintiffs have demonstrated a likelihood of irreparable
harm. It notes, though, that the Court could not issue injunctive relief without
causing equivalent harm to Intervenor-Defendants.
III.

Balance of the Equities

Plaintiffs contend that the balance of equities “tips sharply” in their favor.
They argue that they and other voters face disenfranchisement, but that “[t]he State
. . . will suffer no prejudice if relief is granted because it has no legitimate interest
in disenfranchising an entire class of voters who lawfully cast their ballots.” (Doc.
4 at 17.) But it hardly needs saying that “disenfranchisement” is not a legitimate
interest.
Rather, the Court finds that the balance of equities counsels heavily against
granting injunctive relief. It is not that equitable considerations necessarily favor

App. 26

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 19 of 21

Intervenor-Defendants, it is that they support refusing to interfere with the state’s
administration of its own election laws.
Further, Plaintiffs cannot rightly contend that the equities support their
position when they chose not to attempt intervention in the state court matter and
instead waited until the final hour to raise their constitutional claims. “A party
requesting a preliminary injunction must generally show reasonable diligence.”
Benisek v. Lamone, 138 S. Ct. 1942, 1944 (2018) (per curium). “That is as true in
election law cases as elsewhere.” Id.
IV.

Public Interest

The public interest also weighs against Plaintiffs’ request for emergency
relief. “While . . . federal courts have a duty to ensure that national, state and local
elections conform to constitutional standards, [they must] undertake that duty with
a clear-eyed and pragmatic sense of the special dangers of excessive judicial
interference with the electoral process.” Soules v. Kauaians for Nukolii Campaign
Comm., 849 F.2d 1176, 1182–83 (9th Cir. 1988). Here, there is an overwhelming
public interest in allowing the state judiciary and legislature to function without
unnecessary federal intervention.
Although the Court has determined that none of the abstention doctrines are
precisely on point, the principle of comity weighs heavily against granting

App. 27

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 20 of 21

Plaintiffs’ motion. Ours “is a system in which there is sensitivity to the legitimate
interests of both State and National Governments, and in which the National
Government, anxious though it may be to vindicate and protect federal rights and
federal interests, always endeavors to do so in ways that will not unduly interfere
with the legitimate activities of the States.” Younger v. Harris, 401 U.S. 37, 44
(1971). Where necessary, “[f]ederal courts, exercising a wise discretion, [must]
restrain their authority because of scrupulous regard for the rightful independence
of the state governments and for the smooth working of the federal judiciary.”
Burford v. Sun Oil Co., 319 U.S. 315, 332 (1943) (quoting Pullman, 312 U.S. at
501) (internal quotation marks omitted).
“[T]he normal thing to do when federal courts are asked to enjoin pending
proceedings in state courts is not to issue such injunctions.” Younger, 401 U.S. at
45. Even if the merits favored Plaintiffs—and they do not—an injunction would
nonetheless be inappropriate, given the parallel proceeding before the Montana
Supreme Court.
Accordingly, IT IS ORDERED that Plaintiffs’ Motion for Temporary
Restraining Order and Preliminary Injunction (Doc. 3) is DENIED.

App. 28

Case 6:20-cv-00062-DLC Document 20 Filed 08/19/20 Page 21 of 21

IT IS FURTHER ORDERED that the parties shall file notices apprising the
Court of whether a case or controversy remains in this matter on or before August
21, 2020.
IT IS FURTHER ORDERED that the Clerk of Court shall immediately send
an electronic copy of this Order to the Clerk of the Montana Supreme Court.
DATED this 19th day of August, 2020.

App. 29

Case 6:20-cv-00062-DLC Document 11 Filed 08/14/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
HELENA DIVISION

ROYAL DAVIS, GARY MARBUT,
TOM HARSCH, and THERESA
HARSCH,
Plaintiffs,

CV 20–62–H–DLC

ORDER

vs.
COREY STAPLETON, in his official
capacity as Montana Secretary of State,
Defendant
And
MONTANA DEMOCRATIC PARTY,
a Montana domestic nonprofit
corporation, RYAN FILZ, MADELINE
NEUMEYER, and REBECCA WEED,
individual electors,
IntervenorDefendants.
The Montana Democratic Party, Ryan Filz, Madeline Neumeyer, and
Rebecca Weed move to intervene in this matter. (Doc. 8.) Plaintiffs have
withdrawn their opposition to the motion. (Doc. 10.)

App. 30

Case 6:20-cv-00062-DLC Document 11 Filed 08/14/20 Page 2 of 2

Accordingly, IT IS ORDERED that the motion to intervene (Doc. 8) is
GRANTED. Intervenor-Defendants shall file a response to Plaintiffs’ motion for a
temporary restraining order on or before August 17, 2020.
IT IS FURTHER ORDERED that Plaintiffs may file an optional reply brief
on or before August 18, 2020.
DATED this 14th day of August, 2020.

App. 31

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 1 of 25

Peter M. Meloy, MT Bar No. 1035
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
Telephone: 406.442.8670
Mike@meloylawfirm.com
Matthew P. Gordon, MT. Bar No. 53468386
Kevin J. Hamilton, pro hac vice pending
PERKINS COIE LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101-3099
Telephone: 206.359.8000
Facsimile: 206.359.9000
MGordon@perkinscoie.com
KHamilton@perkinscoie.com
Attorneys for Proposed IntervenorDefendants
UNITED STATES DISTRICT COURT
DISTRICT OF MONTANA
HELENA DIVISION
ROYAL DAVIS, GARY MARBUT,
TOM HARSCH, and TERESA
HARSCH,
Plaintiffs,
v.
COREY STAPLETON, in his official
capacity as Montana Secretary of State,

Case No. 6:20-cv-00062-DLC
PROPOSED INTERVENOR
DEFENDANTS’ ANSWER TO
VERIFIED COMPLAINT FOR
DECLARATORY AND
INJUNCTIVE RELIEF

Defendant,
and
MONTANA DEMOCRATIC PARTY,
a Montana domestic nonprofit
corporation, RYAN FILZ, MADELINE
NEUMEYER, and REBECCA WEED,
individual electors,
Proposed IntervenorDefendants.

App. 32

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 2 of 25

Proposed Intervenor-Defendants the Montana Democratic Party (“MDC”),
Ryan Filz (“Filz”), Madeline Neumeyer (“Neumeyer”) and Rebecca Weed
(“Weed,” and together with MDC, Filz, and Neumeyer, “Intervenor-Defendants”),
through their attorneys, hereby answer the Verified Complaint for Declaratory and
Injunctive Relief (the “Complaint”) filed by plaintiffs Royal Davis (“Davis”), Gary
Marbut (“Marbut”), Tom Harsch (“Mr. Harsch”), and Teresa Harsch (“Ms.
Harsch,” and together with Davis, Marbut, and Mr. Harsch, “Plaintiffs”).
Intervenor-Defendants respond to Plaintiffs’ Complaint as follows:
PRELIMINARY STATEMENT
1.

The allegations in paragraph 1 are legal conclusions to which no

response is required. To the extent that a response is required, IntervenorDefendants admit that, on March 6, 2020, the Secretary announced to county
elections officials and to the media that he had determined that the Montana Green
Party had submitted enough signatures to satisfy the requirements of § 13-10-601,
MCA. Intervenor-Defendants deny each other or different allegation in
paragraph 1.

App. 33

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 3 of 25

2.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 2 and
therefore deny them.
3.

Intervenor-Defendants admit that every county in Montana conducted

a mail ballot election for the June 2, 2020 Primary Election. Intervenor-Defendants
are without knowledge or information sufficient to form a belief as to the truth of
the remaining allegations in paragraph 3 and therefore deny them.
4.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 4 and
therefore deny them.
5.

Intervenor-Defendants admit that they filed a complaint in state court

on June 1, 2020, captioned Montana Democratic Party, et al. v. State of Montana
by and through its Secretary of State Corey Stapleton, Cause No. DDV-2020-856
(referred to herein as the “State Court Action”), and further state that the complaint
speaks for itself. Intervenor-Defendants are without knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph 5
and therefore deny them.
6.

In response to the allegations in paragraph 6, Intervenor-Defendants

state that the order issued on August 7, 2020 in the State Court Action speaks for

App. 34

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 4 of 25

itself. Intervenor-Defendants deny each other or different allegation in
paragraph 6.
7.

In response to the allegations in paragraph 7, Intervenor-Defendants

state that the order issued on August 7, 2020 in the State Court Action speaks for
itself. Intervenor-Defendants deny each other or different allegation in
paragraph 7.
8.

In response to the allegations in paragraph 8, Intervenor-Defendants

state that the order issued on August 7, 2020 in the State Court Action speaks for
itself. Intervenor-Defendants deny each other or different allegation in
paragraph 8.
9.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 9 that
Plaintiffs Harschs and other Montana voters lawfully cast Green Party ballots in
May and therefore deny them. As to the remaining allegations, IntervenorDefendants state that the order issued on August 7, 2020 in the State Court Action
speaks for itself. Intervenor-Defendants deny each other or different allegation in
paragraph 9.

App. 35

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 5 of 25

10.

The allegations in paragraph 10 are legal conclusions to which no

response is required. To the extent that a response is required, IntervenorDefendants deny the allegations in paragraph 10.
11.

The allegations in paragraph 11 are legal conclusions to which no

response is required. To the extent that a response is required, IntervenorDefendants deny the allegations in paragraph 11.
12.

Intervenor-Defendants deny the allegations in paragraph 12.

13.

The allegations in paragraph 13 are legal conclusions to which no

response is required. To the extent that a response is required, IntervenorDefendants deny the allegations in paragraph 13.
14.

Intervenor-Defendants deny the allegations in paragraph 14.
JURISDICTION AND VENUE

15.

The allegations in paragraph 15 are legal conclusions to which no

response is required.
16.

The allegations in paragraph 16 are legal conclusions to which no

response is required. To the extent that a response is required, IntervenorDefendants deny the allegations in paragraph 16.
17.

Intervenor-Defendants admit that the office of the Montana Secretary

of State is located in Helena. The remaining allegations in paragraph 17 are legal

App. 36

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 6 of 25

conclusions to which no response is required. To the extent that a response is
required, Intervenor-Defendants deny each other or different allegation in
paragraph 17.
PARTIES
18.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 18 and
therefore deny them.
19.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 19 and
therefore deny them.
20.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 20 and
therefore deny them.
21.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 21 and
therefore deny them.
22.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 22 and
therefore deny them.

App. 37

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 7 of 25

23.

Intervenor-Defendants admit that Defendant Corey Stapleton is

Montana’s elected Secretary of State and was elected to that position in November
2016. Intervenor-Defendants are without knowledge or information sufficient to
form a belief as to the truth of the remaining allegations in paragraph 23 and
therefore deny them.
24.

The allegations in paragraph 24 are legal conclusions to which no

response is required.
STATEMENT OF FACTS
A. Rules for Political Parties to Qualify for Montana Primary Elections
25.

In response to paragraph 25, Defendant-Intervenors state that

Montana law speaks for itself. Intervenor-Defendants deny each other or different
allegation in paragraph 25.
26.

In response to the allegations in paragraph 26, Defendant-Intervenors

state that Montana law speaks for itself. Intervenor-Defendants deny each other or
different allegation in paragraph 25.
27.

Intervenor-Defendants admit that the Democratic Party, the

Republican Party, and the Libertarian Party are currently eligible to nominate their
candidates for public office by a primary election. Intervenor-Defendants deny
each other or different allegation in paragraph 27.

App. 38

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 8 of 25

28.

In response to the allegations in paragraph 28, Defendant-Intervenors

state that Montana law speaks for itself. Intervenor-Defendants deny each other or
different allegation in paragraph 28.
29.

In response to the allegations in paragraph 29, Defendant-Intervenors

state that Montana law speaks for itself. Intervenor-Defendants deny each other or
different allegation in paragraph 29.
30.

In response to the allegations in paragraph 30, Defendant-Intervenors

state that Montana law speaks for itself. Intervenor-Defendants deny each other or
different allegation in paragraph 30.
B. Qualification of the Green Party for the 2020 Primary and Casting of
Green Party Ballots by Voters
31.

Intervenor-Defendants admit that, on or around January 24, 2020,

some registered Montana voters began signing petitions bearing the name of the
Montana Green Party. Intervenor-Defendants deny each other or different
allegation in paragraph 31.
32.

Intervenor-Defendants admit that some petitions bearing the name of

the Montana Green Party were submitted to county elections administrators on or
before March 2, 2020. Intervenor-Defendants deny each other or different
allegation in paragraph 32.

App. 39

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 9 of 25

33.

Intervenor-Defendants admit that on March 6, 2020, the Secretary

announced to county elections officials and to the media that the Montana Green
Party had submitted enough signatures to satisfy the requirements of § 13-10-601,
MCA. Intervenor-Defendants deny each other or different allegation in paragraph
33.
34.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 34 and
therefore deny them.
35.

Intervenor-Defendants admit that “Wendie Fredrickson” is listed as a

candidate on the Montana Secretary of State’s 2020 Candidate Filing List with the
designations “Office: US Senate” and “Party: Green.” Intervenor-Defendants deny
each other or different allegation in paragraph 35.
36.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 36 and
therefore deny them.
37.

Intervenor-Defendants admit that “Roy Davis” is listed as a candidate

on the Montana Secretary of State’s 2020 Candidate Filing List with the
designations “Office: Attorney General” and “Party: Green.” IntervenorDefendants deny each other or different allegation in paragraph 37.

App. 40

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 10 of 25

38.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 38 and
therefore deny them.
39.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 39 and
therefore deny them.
40.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 40 and
therefore deny them.
41.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 41 and
therefore deny them.
42.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 42 and
therefore deny them.
43.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 43 and
therefore deny them.

App. 41

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 11 of 25

44.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 44 and
therefore deny them.
45.

Intervenor-Defendants admit that Gary Marbut is listed as a candidate

on the Montana Secretary of State’s 2020 Candidate Filing List with the
designations “Office: Senate District 47” and “Party: Green.” IntervenorDefendants are without knowledge or information sufficient to form a belief as to
the truth of any remaining allegations in paragraph 45 and therefore deny them.
46.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 46 and
therefore deny them.
47.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 47 and
therefore deny them.
48.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 48 and
therefore deny them.

App. 42

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 12 of 25

49.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 49 and
therefore deny them.
50.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 50 and
therefore deny them.
51.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 51 and
therefore deny them.
52.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 52 and
therefore deny them.
C. Casting of Green Party Ballots By Montana Voters
53.

In response to the allegations in paragraph 53, Intervenor-Defendants

state that Montana law speaks for itself. To the extent that a response is required,
Intervenor-Defendants deny the allegations in paragraph 53.
54.

Intervenor-Defendants admit that Governor Steve Bullock issued a

directive on March 25, 2020, and further state that the March 25, 2020 directive

App. 43

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 13 of 25

speaks for itself. Intervenor-Defendants deny each other or different allegation in
paragraph 54.
55.

Intervenor-Defendants admit that every county in Montana conducted

a mail ballot election for the June 2, 2020 Primary Election. Intervenor-Defendants
deny each other or different allegation in paragraph 55.
56.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 56 and
therefore deny them.
57.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 57 and
therefore deny them.
58.

Paragraph 58 contains no allegations to which a response is required.

To the extent that a response is required, Intervenor-Defendants state that Exhibit
1 and the information found on the Secretary of State’s website speaks for itself.
59.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 59 and
therefore deny them.

App. 44

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 14 of 25

60.

Paragraph 60 contains no allegations to which a response is required.

To the extent that a response is required, Intervenor-Defendants state that Exhibit 2
and the information found on the Secretary of State’s website speaks for itself.
61.

In response to the allegations in paragraph 61, Intervenor-Defendants

state that the instruction sheet speaks for itself. Intervenor-Defendants deny each
other or different allegation in paragraph 61.
62.

In response to the allegations in paragraph 62, Intervenor-Defendants

state that the instruction sheet speaks for itself. Intervenor-Defendants deny each
other or different allegation in paragraph 62.
63.

In response to the allegations in paragraph 63, Intervenor-Defendants

state that the instruction sheet speaks for itself. Intervenor-Defendants deny each
other or different allegation in paragraph 63.
64.

In response to the allegations in paragraph 64, Intervenor-Defendants

state that the instruction sheet speaks for itself. Intervenor-Defendants deny each
other or different allegation in paragraph 64.
65.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 65 and
therefore deny them.

App. 45

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 15 of 25

66.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 66 and
therefore deny them.
67.

Intervenor-Defendants admit that the Secretary’s 2020 Statewide

Primary Election Canvass lists 504 votes cast for Wendie Fredrickson and 255
votes cast for Dennis Daneke. Intervenor-Defendants deny the remaining
allegations in paragraph 67.
68.

Intervenor-Defendants admit that the Secretary’s 2020 Statewide

Primary Election Canvass lists 752 votes cast for Roy Davis. IntervenorDefendants deny the remaining allegations in paragraph 68.
69.

Intervenor-Defendants admit that the Secretary’s 2020 Legislative

Primary Election Canvass lists 14 votes cast for Gary Marbut. IntervenorDefendants deny the remaining allegations in paragraph 69.
70.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 70 and
therefore deny them.
D. The Democratic Party’s Suit Challenging the Green Party Filed the Day
Before the Primary Election
71.

Intervenor-Defendants admit that, on June 1, 2020, they filed a

Complaint in the State Court Action. Intervenor-Defendants state that the

App. 46

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 16 of 25

complaint filed in the State Court Action speaks for itself. Intervenor-Defendants
deny each other or different allegation in paragraph 71.
72.

Paragraph 72 contains no allegations to which a response is required.

To the extent that a response is required, Intervenor-Defendants state that the
complaint filed in the State Court Action speaks for itself.
73.

Intervenor-Defendants admit that the complaint filed in the State

Court Action named as plaintiffs four persons who had signed the petition at issue.
Intervenor-Defendants deny the remaining allegations in paragraph 73.
74.

In response to the allegations in paragraph 74, Intervenor-Defendants

state that the complaint and summons filed in the State Court Action speak for
themselves.
75.

Intervenor-Defendants state that the filing in the State Court Action

styled “Motion to Intervene of Gary Marbut” bearing the date July 17, 2020
speaks for itself. Intervenor-Defendants are without knowledge or information
sufficient to form a belief as to the truth of the remaining allegations in paragraph
75 and therefore deny them.
76.

In response to the allegations in paragraph 76, Intervenor-Defendants

state that the August 7, 2020 Order on Secondary and Post-Hearing Motions issued

App. 47

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 17 of 25

in the State Court Action speaks for itself. Intervenor-Defendants deny each other
or different allegation in paragraph 76.
77.

In response to the allegations in paragraph 77, Intervenor-Defendants

state that the order issued in the State Court Action speaks for itself. IntervenorDefendants deny each other or different allegation in paragraph 77.
78.

In response to the allegations in paragraph 78, Intervenor-Defendants

state that the order issued in the State Court Action speaks for itself. IntervenorDefendants deny each other or different allegation in paragraph 78.
79.

In response to the allegations in paragraph 79, Intervenor-Defendants

state that the order issued in the State Court Action speaks for itself. IntervenorDefendants deny each other or different allegation in paragraph 79.
80.

In response to the allegations in paragraph 80, Intervenor-Defendants

state that the order issued in the State Court Action speaks for itself. IntervenorDefendants deny each other or different allegation in paragraph 80.
81.

In response to the allegations in paragraph 81, Intervenor-Defendants

state that the order issued in the State Court Action speaks for itself. IntervenorDefendants deny each other or different allegation in paragraph 81.

App. 48

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 18 of 25

82.

In response to the allegations in paragraph 82, Intervenor-Defendants

state that the order issued in the State Court Action speaks for itself. IntervenorDefendants deny each other or different allegation in paragraph 82.
83.

In response to the allegations in paragraph 83, Intervenor-Defendants

state that the order issued in the State Court Action speaks for itself. IntervenorDefendants deny each other or different allegation in paragraph 83.
84.

In response to the allegations in paragraph 84, Intervenor-Defendants

state that the order issued in the State Court Action speaks for itself. IntervenorDefendants deny each other or different allegation in paragraph 84.
85.

In response to the allegations in paragraph 85, Intervenor-Defendants

state that the order issued in the State Court Action speaks for itself. IntervenorDefendants deny each other or different allegation in paragraph 85.
86.

In response to the allegations in paragraph 86, Intervenor-Defendants

state that the order issued in the State Court Action speaks for itself. IntervenorDefendants deny each other or different allegation in paragraph 86.
87.

Intervenor-Defendants admit that Defendant Stapleton filed a notice

of appeal from the State Court Action to the Montana Supreme Court on August 7,
2020.

App. 49

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 19 of 25

CAUSES OF ACTION
FIRST CAUSE OF ACTION
Violation of Plaintiffs’ Right to Due Process under the Fourteenth
Amendment to the United States Constitution
(42 U.S.C. 1983)
88. Intervenor-Defendants incorporate by reference their responses to
paragraphs 1 through 87, as though fully set forth herein.
89.

The allegations in paragraph 89 are legal conclusions to which no

response is required.
90.

The allegations in paragraph 90 are legal conclusions to which no

response is required.
91.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 91 and
therefore deny them.
92.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 92 and
therefore deny them.
93.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 93 and
therefore deny them.

App. 50

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 20 of 25

94.

In response to paragraph 94, Defendant-Intervenors state that

Montana law speaks for itself. Defendant-Intervenors deny each other or different
allegation in paragraph 94.
95.

Intervenor-Defendants deny the allegations in Paragraph 95.

96.

Intervenor-Defendants deny the allegations in Paragraph 96.

97.

Intervenor-Defendants deny the allegations in Paragraph 97.

98.

In response to the allegations in paragraph 98, Intervenor-Defendants

state that the order issued in the State Court Action speaks for itself. IntervenorDefendants deny each other or different allegation in paragraph 98.
99.

Intervenor-Defendants are without knowledge or information

sufficient to form a belief as to the truth of the allegations in paragraph 99 and
therefore deny them.
100. Intervenor-Defendants deny the allegations in Paragraph 100.
101. Except as specifically admitted herein, Intervenor-Defendants deny
each and every allegation of Plaintiffs’ Complaint.
AFFIRMATIVE DEFENSES
By way of further answer, Intervenor-Defendants allege the following
defenses and affirmative defenses without assuming the burden of proof, where
such burden is otherwise on Plaintiffs under applicable law. Intervenor-

App. 51

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 21 of 25

Defendants reserve the right to add additional affirmative defenses and additional
facts supporting their defenses after conducting further discovery, investigation,
research, and analysis.
102. Plaintiffs’ Complaint fails to state a claim upon which relief may be
granted.
103.

Plaintiffs’ claims are barred in whole or in part by the doctrines of

laches and unclean hands.
104. Plaintiffs’ claims are barred in whole or in part by the doctrines of res
judicata, claim preclusion, and/or issue preclusion.
105. Plaintiffs’ claims are barred in whole or in part by the doctrine of
abstention under Railroad Commission v. Pullman Co., 312 U.S. 496 (1941) and
Pennhurst State Sch. v. Halderman, 465 U.S. 89 (1984).
106. Plaintiffs’ claims are barred in whole or in part because Plaintiffs
contributed to or caused their own damages, the existence of which IntervenorDefendants specifically deny, by their own actions, omissions, misconduct, and/or
negligence.
107. Plaintiffs’ claims are barred in whole or in part to the extent their
actions were fraudulent and/or illegal.

App. 52

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 22 of 25

108. Plaintiffs’ claims are barred in whole or in part by the doctrines of
estoppel and/or waiver.
RESPONSE TO PLAINTIFFS’ PRAYER FOR RELIEF
Intervenor-Defendants deny all allegations in Plaintiffs’ prayer for relief and
deny that Plaintiffs are entitled to any relief.
INTERVENOR DEFENDANTS’ PRAYER FOR RELIEF
WHEREFORE, having fully answered Plaintiffs’ Complaint, IntervenorDefendants pray for relief as follows:
A.

That Plaintiffs’ Complaint be dismissed with prejudice;

B.

That all of Plaintiffs’ requests for temporary or permanent injunctive

relief, declaratory judgment, and other equitable relief be denied;
C.

That Plaintiffs’ request for an award of costs, expenses, and attorneys’

fees be denied;
D.

That Intervenor-Defendants be awarded their legally recoverable

costs, disbursements, and reasonable attorneys’ fees; and
E. That Intervenor-Defendants be awarded such other and further relief as
the Court deems just and equitable.

App. 53

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 23 of 25

DATED: August 13, 2020

By: /s/ Peter M. Meloy
Peter M. Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena MT 59624
Telephone: 406.442.8670
Mike@meloylawfirm.com
Matthew P. Gordon
Kevin J. Hamilton, pro hac vice pending
PERKINS COIE LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101-3099
Telephone: 206.359.8000
Facsimile: 206.359.9000
MGordon@perkinscoie.com
KHamilton@perkinscoie.com
Attorneys for Proposed IntervenorDefendants

App. 54

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 24 of 25

CERTIFICATE OF SERVICE
The undersigned hereby certifies that the foregoing document was served
upon the following counsel of record by the means designated below this 13th day
of August, 2020.
 U.S. Mail
 Email
 Hand-Delivery
 Facsimile
 ECF

Matthew G. Monforton
MONFORTON LAW OFFICES
32 Kelly Court
Bozeman, MT 59718
matthewmonforton@yahoo.com
Counsel for Plaintiffs

 U.S. Mail
 Email
 Hand-Delivery
 Facsimile
 ECF

Montana Secretary of State
Montana Capitol Building, Rm 260
Helena, MT 59620-2801

 U.S. Mail
 Email
 Hand-Delivery
 Facsimile
 ECF

Austin James
Chief Legal Counsel
Secretary of State’s Office
P.O. Box 202801
Helena, MT 59620-2801
austin.james@mt.gov
Counsel for Defendant Corey Stapleton

App. 55

Case 6:20-cv-00062-DLC Document 9-2 Filed 08/13/20 Page 25 of 25

 U.S. Mail
 Email
 Hand-Delivery
 Facsimile
 ECF

Timothy C. Fox, Montana Attorney General
c/o J. Stuart Segrest, Chief, Civil Bureau
c/o Aislinn W. Brown, Assistant Attorney General
c/o Hannah E. Tokerud, Assistant Attorney General
215 North Sanders
P.O. Box 201401
Helena, MT 59620-1401
ssegrest@mt.gov
aislinn.brown@mt.gov
hannah.tokerud@mt.gov
Counsel for Montana Attorney General

DATED: August 13, 2020

By: /s/ Peter M. Meloy
Peter M. Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena MT 59624
Telephone: 406.442.8670
Mike@meloylawfirm.com
Matthew P. Gordon
Kevin J. Hamilton, pro hac vice pending
PERKINS COIE LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101-3099
Telephone: 206.359.8000
Facsimile: 206.359.9000
MGordon@perkinscoie.com
KHamilton@perkinscoie.com
Attorneys for Proposed IntervenorDefendants

App. 56

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 1 of 21

Matthew G. Monforton (Montana Bar # 5245)
Monforton Law Offices, PLLC
32 Kelly Court
Bozeman, Montana 59718
Telephone: (406) 570-2949
E-mail:
matthewmonforton@yahoo.com
Attorney for Plaintiffs
UNITED STATES DISTRICT COURT
DISTRICT OF MONTANA
HELENA DIVISION
ROYAL DAVIS, GARY MARBUT, TOM
HARSCH, TERESA HARSCH,

)
) Case No.

)

-------------

) VERIFIED COMPLAINT FOR
) DECLARATORY AND
v.
) INJUNCTIVE RELIEF
COREY STAPLETON, in his official capacity )
as Montana Secretary of State,
)
)
Defendant.
)
)
Plaintiffs,

PRELIMINARY STATEMENT
1.

On March 6, 2020, Montana Secretary of State Corey Stapleton declared a

ballot qualification petition submitted to election officials had garnered sufficient
signatures under Montana law to qualify the Green Party for the ballot.
2.

Shortly thereafter, several candidates filed for Green Party nominations,

including Plaintiff Royal Davis (who filed as a candidate for Montana Attorney
General) and Plaintiff Gary Marbut (who filed for a seat in the Montana Senate).

App. 57

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 2 of 21

3.

The State conducted an all-mail primary election and mailed ballots to the

electors on May 8, 2020.
4.

Plaintiffs Tom Harsch and Teresa Harsch, along with approximately 800

other Montana voters, marked Green Party ballots and timely returned them to
election officials.
5.

On June 1,2020, the day before the primary election, and weeks after most

Green Party voters had mailed in their ballots, the Montana Democratic Party filed
suit in state court to invalidate the Green Party qualification petition and remove
the Green Party from the ballot.
6.

In an order issued August 7, 2020, the state court did not find any defects in

the wording of the petition or reasons that would have disqualified any of the
signers from signing the petition.
7.

Rather, the state court determined that several petition signers had become

dismayed upon learning that Republicans had funded signature-gathering efforts.
8.

The state court further ruled that, by late May 2020, enough of these signers

had requested withdrawal of their signatures that the number of remaining signers
had fallen below the legal threshold needed to qualify a party for the ballot.
9.

So on August 7, 2020, nearly three months after the Harschs and other

Montana voters lawfully cast Green Party ballots in May, and nearly five months
after Secretary Stapleton declared in March that the Green Party was ballot-

2

App. 58

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 3 of 21

qualified, the state court ruled that the Secretary Stapleton is "enjoined from
implementing or giving any effect to the [Green Party's] Petition."
10.

A denial of substantive due process occurs if an election is "conducted in a

manner that is fundamentally unfair." Bennett v. Yoshina, 140 F.3d 1218, 1226
(9th Cir. 1998).
11.

An election is fundamentally unfair and violates substantive due process if

two elements are present:
(1) likely reliance by voters on an established election procedure
and/or official pronouncements about what the procedure will be in
the coming election; and
(2) significant disenfranchisement that results from a change in the
election procedures.

Bennett, 140 F.3d at 1226-27, citing Griffin v. Burns, 570 F.2d 1065, 1078-79 (1st
Cir. 1978).
12.

The buyer's remorse suffered by some of the Green Party petition signers

well after the Party qualified for the ballot -- and well after many of the Green
Party voters had cast ballots -- did not justify the state court's cavalier
disenfranchisement of Plaintiffs and nearly 800 other Green voters months after
they had lawfully cast ballots in Montana's primary election.
13.

Montana law requires state election officials to certify for the general

election ballot the names and party designations of candidates no later than August

20.2020. Mont. Code Ann. § 13-12-201(1)
3

App. 59

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 4 of 21

14.

Without immediate relief from this Court, Plaintiffs and approximately 800

other Green Party voters will suffer irreparable injury to their constitutional rights,
including disenfranchisement, despite having lawfully cast ballots during
Montana's primary election.
JURISDICTION AND VENUE

15.

This Court has jurisdiction under 28 U.S.C. § 1331,28 U.S.C. § 1343,42

U.S.C. § 1983, and the Fourteenth Amendment to the United States Constitution.
16.

Because this action arises under 42 U.S.C. §1983, this Court has jurisdiction

notwithstanding the general prohibition contained in the Anti-Injunction Act, 28
U.S.C. § 2283, 1 against federal injunctions staying proceedings in state courts.
Mitchum v. Foster, 407 U.S. 225, 243 (1972).

17.

Defendant Stapleton resides in the Helena Division of the Court and,

therefore, venue for this action properly lies in the Helena Division.

PARTIES

18.

Plaintiff Royal Davis is now and has been for over 40 years a resident of

Lewis and Clark County, Montana.

I

The Anti-Injunction Act states as follows:
A court of the United States may not grant an injunction to stay proceedings in a
State court except as expressly authorized by Act of Congress, or where
necessary in aid of its jurisdiction, or to protect or effectuate its judgments.

28 U.S.C. § 2283

4

App. 60

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 5 of 21

19.

Plaintiff Davis meets all of the legal requirements to serve as Attorney

General of Montana.
20..

Plaintiff Gary Marbut is a resident of Missoula County, Montana, and meets

all of the legal requirements to serve in the Montana Senate.
21.

Plaintiff Tom Harsch is a resident of Yellowstone County, Montana, and at

all times pertinent to this lawsuit has been registered to vote in Yellowstone
County.
22.

Plaintiff Teresa Harsch is a resident of Yellowstone County, Montana and at

all times pertinent to this lawsuit has been registered to vote in Yellowstone
County.
23.

Defendant Corey Stapleton was elected Secretary of State in November

2016 and, since that time, has resided in Lewis and Clark County, Montana.
24.

Secretary Stapleton is sued in his official capacity only.

STATEMENT OF FACTS

A. Rules For Political Parties to Qualify for Montana Primary Elections
25.

Montana law provides two methods by which a political party can qualify

for the ballot in a primary election.
26.

First, a political party will appear on the primary ballot if it had a candidate

for statewide o~fice in either of the prior two general elections who received at

5

App. 61

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 6 of 21

least 5% of the total vote received by the successful candidate for governor. Mont.
Code Ann. § 13-10-601(1).
27.

Under this rule, the Democratic Party, the Republican Party, and the

Libertarian Party are ballot-qualified parties.
28.

Parties that are not ballot-qualified under Mont. Code Ann. § 13-10-601 (1 )

may seek qualification under Mont. Code Ann. § 13-1 0-60 1(2)(b) by submitting to
the Secretary of State a petition signed by a number of registered voters equal to
5% or more of the total votes cast for the successful candidate for governor at the
last general election or 5,000 electors, whichever is less.
29.

This number must include registered voters in at least 34 of Montana's 100

legislative districts equal to 5% or more of the total votes cast for the successful
candidate for governor at the last general election in those districts or 150 electors
in those districts, whichever is less. Mont. Code Ann. § 13-10-601(2)(b).
30.

The deadline to submit new political party qualification petitions to county

election administrators was March 2, 2020. Mont. Code Ann. § 13-10-601(2)(c).

B. Qualification of the Green Party For the 2020 Primary and Casting of
Green Party Ballots By Voters
31.

Sometime in January or February 2020, registered Montana voters began

signing a petition to qualify the Green Party for the 2020 primary election.

6

App. 62

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 7 of 21

32.

In accordance with Montana law, petition signatures and affidavits of

circulation were timely submitted to county election administrators on or before
the deadline of March 2, 2020.
33.

On March 6, 2020, Secretary Stapleton publicly announced that the Green

Party had submitted sufficient signatures to qualify for the ballot.
34.

During the following week, several Green Party candidates timely filed

nomination papers with the Secretary.
35.

One candidate was Wendie Fredrickson, who filed as a Green Party

candidate for United States Senator.
36.

Fredrickson paid a candidate filing fee of$I,740.00.

37.

Plaintiff Royal Davis filed as a Green Party candidate for Montana Attorney

General.
38.

Davis paid a candidate filing fee of$I,410.23.

39.

Davis has been licensed to practice law in Montana since 1996.

40.

Davis had spent decades supporting Democratic candidates for governor

prior to filing as a Green Party candidate.
41.

These efforts included serving twice as the Lewis and Clark County

Campaign Coordinator for former Democratic Governor Tom Judge.
42.

Davis was also involved in the campaigns of other Democratic gubernatorial

candidates such as Mike McGrath and Brian Schweitzer.

7

App. 63

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 8 of 21

43.

Davis has collected wind generators since he was in high school and also

owns solar panels.
44.

Davis heats his home and mountain cabin exclusively with renewable

resources.
45.

Plaintiff Gary Marbut filed as a Green Party candidate for the Montana

Senate in a Missoula-area senate district.
46.

Marbut paid a candidate filing fee of $15.

47.

Marbut has in prior election cycles filed for both Democratic and Republican

nominations for various offices.
48.

Prior to 2020, Marbut's most recent campaign was as an Independent

candidate for Montana House District 94 in 2014.
49.

Marbut believes the Green Party aligns with his ecological ideals.

50.

Marbut has long been active in conservation efforts, starting with his

appointment in the 1980s to the Governor's Advisory Council for Residential
Energy Conservation.
51.

Marbut lives in a home he built 40 years ago that receives thermal solar,

electrical solar, and passive solar energy, and is highly insulated and partially
earth-sheltered, thereby requiring him to spend only about $10 each year for
electric backup heat.

8

App. 64

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 9 of 21

52.

Marbut has been an organic gardener for 40 years and currently cultivates

approximately Y2 acre of land in order to produce locally grown food.

C. Casting of Green Party Ballots By Montana Voters
53.

The Secretary provides party ballots to every voter during a Montana

primary election - the voter then casts votes on only one of the party ballots and
discards the others. Mont. Code Ann. § 13-10-301.
54.

Governor Steve Bullock issued a directive on March 25,2020, permitting

Montana counties to conduct mail-ballot elections in response to the state of
emergency created by the outbreak of COVID-19 Novel Coronavirus.
55.

In response to Governor Bullock's directive, every Montana county

implemented a mail-ballot election.
56.

Election officials mailed ballots to Montana voters on May 8, 2020.

57.

The mailings to each voter included four ballots representing each of the

four ballot-qualified parties: Democratic, Republican, Libertarian, and Green:
58.

A sample ballot for the Green Party can be found on the Secretary's website

at https://app.mt.gov/voterinfo/ballotI1664CG.pdfand is attached as Exhibit 1.
59.

Election officials included an instruction sheet in the mailings sent to each

voter as well as a return signature envelope.

9

App. 65

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 10 of 21

60.

A copy of the instruction sheet can be found on the Secretary's website at

https://sosmt.gov/wp-content/uploads/attachments/Absentee-VotingInstructions.pdf?dt= 1519325225636 and is attached as Exhibit 2.
61.

The instruction sheet directed voters to "Vote only one party ballot."

62.

Consistent with Montana law, the instruction sheet further directed voters to

"Place party ballot that you VOTED in the SECRECY ENVELOPE and seal the
envelope" as well as "Discard and DO NOT return your UNVOTED party
ballot(s)." (Capitalizations in original).
63.

The instruction sheet further advised voters that the "Postal Service

recommends mail at least one week before the election."
64.

It also included this instruction:

Ballots must be received at the election office by 8 p.m. on
Election Day, June 2, 2020. A postmark is not accepted. If you mail
your ballot make sure there is enough time for it to reach your
election office.
(Emphasis in original).
65.

Plaintiffs Tom Harsch and Teresa Harsch received the Secretary's election

mailing shortly after May 8, 2020.
66.

The Harschs each chose a Green Party ballot, marked their selection of

Wendie Fredrickson for U.S. Senate as well as Green candidates for other offices,
promptly mailed their Green ballots in the return signature envelopes, and
discarded the other party ballots.
10

App. 66

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 11 of 21

67.

After the primary election on June 2, 2020, Fredrickson received 504 votes,

compared to 255 votes for her opponent, and therefore prevailed in the primary.
68.

Plaintiff Royal Davis, who was the only candidate seeking the Green Party's

nomination for Attorney General, received 752 votes and is therefore the Green
Party nominee for Attorney General.
69.

Plaintiff Gary Marbut, who was the only candidate seeking the Green

Party's nomination for Montana Senate District 47, received 14 votes and is
therefore the Green Party nominee for that district.
70.

Plaintiffs Tom Harsch and Teresa Harsch intend to vote for Green Party

candidates in the general election in November 2020.

D. The Democratic Party's Suit Challenging the Green Party Filed the Day
Before the Primary Election
71.

On June 1, 2020 -- one day before the primary election -- the Montana

Democratic Party filed suit in the Montana First Judicial District Court seeking to
invalidate the Green Party's ballot-qualification petition and enjoin Secretary
Stapleton from implementing it.
72.

A copy of the complaint filed in Montana Democratic Party, et al. v. State of

Montana by and through its Secretary of State Corey Stapleton, Cause No. DDV-

2020-856, is attached as Exhibit 3.

11

App. 67

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 12 of 21

73.

The lawsuit also named as plaintiffs three persons who had signed the

petition to qualify the Green Party for the primary election.
74.

The state court plaintiffs did not name any Green Party candidates or voters

as parties and did not serve copies of the complaint on any of them.
75.

Plaintiff Marbut filed a pro se motion to intervene in the state court matter

on July 17, 2020.
76.

The state court denied the motion on August 6, 2020.

77.

The state court issued an order the next day granting the Democratic Party's

motion for summary judgment and ordered that Secretary Stapleton and his agents
"are enjoined from implementing or giving any effect to the [Green Party's]
Petition." Exhibit 4 at 49.
78.

The order stated that, in the months after Secretary Stapleton declared in

March that the Green Party had qualified for primary election, the Montana
Democratic Party "mobilized to inform signers that an unknown entity unaffiliated
with the Montana Green Party - eventually revealed to be the MTGOP - was
behind the petition, and assisted signers who wanted to withdraw their names from
the petition." Exhibit 4, , 69.
79.

The state court ruled that several signers became dismayed upon hearing that

Republicans had provided funding to signature-gatherers and that "[b]y late May,

12

App. 68

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 13 of 21

over 500 signers of the petition ... had submitted requests to withdraw their
signature." Exhibit 4, ~ 92.
80.

The court determined that, after accounting for the withdrawal requests, the

number of remaining petition signatures satisfied the legal threshold in 33 Montana
legislative districts, not 34 as required under Mont. Code Ann. § 13-10-601 (2 )(b).
Exhibit 4, ~ 94.

81.

The order makes no mention of the fact that, weeks before the Democratic

Party had obtained the 500 withdrawal requests in late May, voters had been
marking and returning Green Party ballots sent to them by the State.
82.

The order does not explain what legal authority the state court had to

disenfranchise the nearly 800 Montana voters that had lawfully cast Green Party
ballots well before the Democratic Party had bothered to file its lawsuit on June 1,
2020.
83.

Indeed, the order makes no mention of Green Party voters at all.

84.

The order does not cite any Montana statute authorizing the withdrawal of

signatures from a party-qualification petition, let alone one authorizing withdrawal

after voters had begun casting ballots for the party.
85.

The order contains no assertions about the Green Party petition itself being

defective or containing misleading wording.

13

App. 69

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 14 of 21

86.

The order contains no assertions about any of the petition signers being

unregistered to vote or any other assertions about the signers being unqualified to
sign the petition.
87.

Later in the day on August 7, 2020, Secretary Stapleton filed a notice of

appeal in the Montana Supreme Court. Montana Democratic Party et al v. State of
Montana, Case No.

DA 20-0396.
CAUSES OF ACTION

FIRST CAUSE OF ACTION
Violation of Plaintiffs' Right to Due Process under the Fourteenth
Amendment to the United States Constitution
(42 U.S.C. 1983)
88.

Plaintiffs reallege and incorporate by reference each allegation set forth

above.
89.

A denial of substantive due process occurs if an election is "conducted in a

manner that is fundamentally unfair." Bennett v. Yoshina, 140 F.3d 1218, 1226
(9th Cir. 1998).
90.

An election is fundamentally unfair and violates substantive due process if

two elements are present:
(1) likely reliance by voters on an established election procedure
and/or official pronouncements about what the procedure will be in
the coming election; and
(2) significant disenfranchisement that results from a change in the
election procedures.
14

App. 70

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 15 of 21

Bennett, 140 F.3d at 1226-27, citing Griffin v. Burns, 570 F.2d 1065, 1078-79 (Ist
Cir. 1978).
91.

The State of Montana mailed primary election ballots to Montana voters on

May 8,2020.
92.

These mailings included ballots for the four ballot-qualified political parties:

Democratic, Republican, Libertarian, and Green.
93.

Plaintiff Tom Harsch and Plaintiff Teresa Harsch chose Green Party ballots,

selected and marked their candidates on these ballots and, in accordance with
Montana law, timely mailed the ballots in the return signature envelopes provided
by the State.
94.

Montana law required the Harschs and all other voters who selected Green

Party ballots to forgo casting ballots in other party primaries.
95.

In turn, the Harschs and all other Montana voters who selected Green Party

ballots were entitled to rely upon the State to count their ballots.
96.

When they cast their ballots, the Harschs and other Green Party voters, as

well as Green Party candidates such as Plaintiff Royal Davis and Plaintiff Gary
Marbut, were entitled to rely upon the State "declar[ing] nominated ... the
individual having the highest number of votes cast for each office." Mont. Code

Aim. § 13-15-507.

15

App. 71

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 16 of 21

97.

When they cast their ballots, the Harschs and other Green Party voters, as

well as Green Party candidates such as Plaintiff Royal Davis and Plaintiff Gary
Marbut, were entitled to rely upon the State to "certify to the election
administrators the name and party or other designation of each candidate who filed
with the Secretary of State and whose name is entitled to appear on the ballot" as
well as rely upon the State to have "official ballots prepared" containing the names
of candidates nominated in the primary election. Mont. Code Ann. § 13-12-201.
98.

On August 7, 2020, nearly three months after the Harschs and other

Montana voters lawfully cast Green Party ballots, and nearly five months after
Secretary Stapleton declared the Green Party to be ballot-qualified, a state court
ruled that the Secretary Stapleton is "enjoined from implementing or giving any
effect to the [Green Party's] Petition."
99.

The purpose of casting a Green ~arty ballot in a primary election is to

nominate Green Party candidates to appear on the general election ballot.
100. If Secretary Stapleton is prevented from placing on the general election
ballot the names of Green Party candidates duly nominated by the voters, the
Green Party ballots cast by the Harschs and approximately 800 other Montana
voters during the Montana primary election will become nullities and these voters
will become disenfranchised.

16

App. 72

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 17 of 21

PRAYER FOR RELIEF
WHEREFORE, Plaintiffs respectfully request the following relief from this
Court:
a) A declaration stating that Secretary of State Corey Stapleton is lawfully
required to place on the general election ballot the names of the Green Party
candidates nominated by Plaintiffs and other Green Party voters during Montana's
primary election;
b) An injunction prohibiting Secretary of State Corey Stapleton and all
persons acting under his authority from omitting from the general election ballot
those Green Party candidates nominated by Plaintiffs and other Green Party voters
during Montana's primary election;
c) An award to Plaintiffs of costs of litigation, including attorneys' fees and
expenses pursuant to 42 U.S.C. § 1988; and
d) Any other relief to which Plaintiffs may be entitled or as this Court deems
necessary and proper.

DATED: August 11, 2020

Respectfully submitted,
/s/ Matthew G. Monforton
Matthew G. Monforton
Attorney for Plaintiffs

17

App. 73

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 18 of 21

VERIFICATION BY GARY MARBUT

I, Gary Marbut, declare as follows:
1. I am a Plaintiff in this action.

2. I have reviewed the attached Complaint and declare that the facts and
allegations contained therein are true, except so far as they are stated to be on
information, and that, so far as they are stated to be on information, I believe
them to be true.
I declare under penalty of perjury under the laws of the United States of
America that the statements contained in this Verification are true and correct.

\l

Executed on August /,;';,2020, in/t) -s)QUlH

/

(PC.l.Cf t"(,

Montana.

~~J!
Gary Marbut
Declarant

App. 74

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 19 of 21

I, Royal Aubrey Davis, declare 'as follows:
1. I am a Plaintiff in this action.
2. I ha'{e reviewed the attached Complaint and declare that. the facts and
allegations contained therein are true, except so far as they are stated to be on
information, and that, so far as they are stated to be on intormation, I believe them
to be true.
I declare under penalty of perjury under the laws of-the United States of

America that the statements contained in this Verification are true and correct.

on August 10, 2020, in Helenl:l,'
Executed
.
._--Montana.

----

.......

App. 75

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 20 of 21

VERIFICATION BY TOM HARSCH

I, Tom Harsch, declare as follows:
1. I am a Plaintiff in this action.
2. I have reviewed the attached Complaint and declare that the facts and
allegations contained therein are true, except so far as they are stated to be on
information, and that, so far as they are stated to be on information, I believe them
to be true.
I declare under penalty of perjury under the laws of the United States of
America that the statements contained in this Verification are true and correct.

J

",

Executed on August _''_.j, 2020, in

~~--?Tom Harsch
Declarant

20

App. 76

Case 6:20-cv-00062-DLC Document 1 Filed 08/11/20 Page 21 of 21

VERIFICATION BY TERESA HARSCH

I, Teresa Harsch, declare as follows:
1. I am a Plaintiff in this action.
2. I have reviewed the attached Complaint and declare that the facts and
allegations contained therein are true, except so far as they are stated to be on
information, and that, so far as they are stated to be on information, I believe them
to be true.
I declare under penalty of perjury under the laws of the United States of
America that the statements contained in this Verification are true and correct.

Executed on August J]l, 2020, in

6'; \\, f\\&_~

, Montana.

~~
Teresa Harsch
Declarant

21

App. 77

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 1 of 50

1

2

FILED

3

AUG 0 7 2020

4

5
6
7

8

MONTANA FIRST JUDICIAL DISTRICT COURT
LEWIS AND CLARK COUNTY

9
10

MONTANA DEMOCRATIC PARTY,

Cause No.: DDV-2020-856

11
12

and

13

TAYLOR BLOSSOM, RYANFILZ,
MADELINE NEUMEYER, and
REBECCA WEED, individual electors,

14

FINDINGS OF FACT,
CONCLUSIONS OF LAW, AND
. ORDER

15
Plaintiffs,

16
17

v.

18
19
20

STATE OF MONTANA, by and through
its SECRETARY OF STATE COREY
STAPLETON,

21

Defendant.

22
This Court heard this matter on July 14 and 15,2020. 1 Peter

23

,

24

Michael Meloy and Matthew Gordon represented Plaintiffs Taylor Blossom,

25

Ryan Filz, Madeline Neumeyer, Rebecca Weed, and the Montana Democratic

The more extensive and complicated procedural history of this matter is recited in the Findings of Fact,

below.

App. 78

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 2 of 50

1

Party (MDP). Austin James andMatthew T. Meade represented Defendant State

2

of Montana, by and through Secretary of State Corey Stapleton (Secretary).

3

The parties presented testimony and evidence and made oral

4

arguments. Following the hearing, the parties submitted proposed findings of

5

fact and conclusions of law and briefs. On July 17, 2020, the parties submitted

6

notices of submittal. 2

7
8

From the file, the testimony and evidence presented, the Court
makes the following:

9

FINDINGS OF FACT

10

1.

This matter came before thc Court on an order to show cause

l I o n Plaintiffs' Complaint for Declaratory and Injunctive Relief.
12

2.

Plaintiffs filed the complaint on June 1,2020, against the

13

Secretary, alleging that the Secretary erroneously failed to honor the requests of

14

several hundred Montana voters to withdraw their names from a petition to

15

obtain ballot access for the Montana Green Party for the November 2020 general

16

election ballot. Plaintiffs alleged that once the withdrawals are accounted for, the

17

petition fails to meet the requirements of Section 13-10-601(2), MCA, the

18

political party qualification statute, because it does not contain the requisite

19

number of valid signatures from at least thirty four legislative House Districts.

20

3.

On Monday, June 22, 2020, the First Judicial District Court,

21

Judge Kathy Seeley presiding, began a hearing on an order to show cause. Six

22

days before the hearing, Plaintiffs filed a trial brief containing exhibits and

23

declarations from Plaintiffs' trial witnesses. Late Friday before the hearing, and

24

on the morning of the hearing, the Secretary filed various motions to dismiss the

25

complaint and to vacate the hearing. Plaintiffs opposed all motions. At the

The Court has also granted status to certain entities and people to file briefs as amici curiae as set forth in
the findings of fact below and in the accompanying Order on Supplemental Motion.
Findings of Fact, Conclusions of Law, and Order-page 2
DDV -2020-856

2

App. 79

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 3 of 50

1

hearing before Judge Seeley, counsel argued the Secretary's motions about

2

whether to proceed, and upon hearing argument, the Court decided to proceed

3

with the hearing and hear evidence and testimony. The Secretary then requested

4

a two-minute recess during which the Secretary filed a motion to substitute Judge

5

Seeley. Judge Seeley referred the matter to Judges Mike Menahan and Michael

6

F. McMahon, both of whom declined to assume jurisdiction. Judge Seeley then

7

referred the matter to the undersigned, who accepted jurisdiction and set a

8

continuation of the show cause hearing for Tuesday, July 7.
4.

9

Prior to the July 7 hearing, the Montana Republican Party

10

(MTGOP) and two petition signers filed motions to intervene as defendants. The

11

MTGOP also filed a motion to reschedule the Tuesday, July 7 hearing. The

12

Secretary filed a response joining in the MTGOP's request to reschedule the

13

Tuesday, July 7 hearing. Plaintiffs opposed the motions to intervene and the

14

motion to reschedule the hearing. On the Sunday before the July 7 hearing, the

15

Secretary filed an emergency motion to continue the hearing due to a family

16

emergency that befell one of its counsel.
5.

17

Plaintiffs filed a supplemental trial brief containing exhibits

18

and declarations that reflected subsequent productions of public records by

19

county elections offices and the Secretary since the first hearing in the case. This

20

filing included copies of every signature withdrawal form known to Plaintiffs to

21

have been submitted to county elections offices or to the Secretary.

22

6.

On July 7, the patiies convened before the CoUti. The Court

23

granted the Secretary's request to continue the hearing, and re-set the hearing to

24

begin Tuesday, July 14.

25

IIIII

Findings of Fact, Conclusions of Law, and Order-page 3
DDV·2020-856

App. 80

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 4 of 50

1

7.

On July 8, the Secretary moved for partial summary judgment

2

regarding the use of electronic signatures on withdrawal forms. Plaintiffs opposed

3

the Secretary's motion and cross-moved for summary judgment on this issue.

4
5

6

8.

On July 14 and 15, the Court held a two-day evidentiary

9.

At the outset of the hearing on July 14, the Court denied the

hearing.

7

motions to intervene by the MTGOP and two individual signers of the petition.

8

The Court granted these entities the right to file briefs as amici curiae. The two

9

individual signers immediately filed a petition for a writ of supervisory control in

10

the Montana Supreme Court seeking to reverse the Court's order denying their

11

motion to intervene. The Montana Supreme Court denied the petition on July 15,

12

noting Plaintiffs did not object to the signers' participation as amici curiae.

13

Campbell v. Montana First Judicial District Court, No. OP 20-360.

14

10.

The Court heard testimony from five witnesses for the

15

Plaintiffs, including l\1DP representatives Kendra Miller and Trent Bolger, and

16

individual plaintiffs Madeleine Neumeyer (Neumeyer), Rebecca Weed (Weed),

17

and Taylor Blossom (Blossom). The Secretary called one witness, Dana Corson,

18

the Secretary's Elections Director. On rebuttal, Plaintiffs re-called Kendra Miller

19

and Trent Bolger to testify. All witnesses were subject to cross examination, and

20

both parties offered exhibits into evidence. The Court concluded the hearing

21

with closing argument on the issucs presented in the case.

22

11.

The political party qualification statute, § 13-10-601, MCA,

23

specifies how parties are eligible to conduct a primary election. The statute has

24

two ways by which a party may appear on the primary election ballot. First, a

25

political party will appear on the primary ballot if it had a candidate for statewide

Findings of Fact, Conclusions of Law, and Order-page 4
DDV-2020·856

App. 81

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 5 of 50

1

office in either of the last two general elections who received a total vote that was

2

at least five percent of the total vote received by the successful candidate for

3

governor. § 13-10-601(1), MCA. Under this provision, MDP, the MTGOP and

4

the Montana Libertarian Party have qualified to appear on the primary ballot.

5

12.

If a party does not qualifY under this previous subsection, it

6

may nevertheless qualifY for the primary by submitting a petition, on a form

7

prescribed by the Secretary, requesting a primary election. Section 13-10-

8

601(2)(a), MCA. Section 13-10-601 (2)(b), requires:

9
10
11
12

13
14

The petition must be signed by a number of registered voters
equal to 5% or more of the total votes cast for the successful
candidate for governor at the last general election or 5,000 electors,
whichever is less. The number must include the registered voters in
more than one-third of the legislative districts equal to 5% or more of
the total votes cast for the successful candidate for governor at the
last general election in those districts or 150 electors in those
districts, whichever is less.

15

13.

Montana has 100 legislative districts. Mont. Const. Art. V,

16

section 2. Therefore, as set forth in this statute, the petition must include the

17

verified signatures of registered voters in at least 34 legislative districts, being

18

"more than one-third of the legislative districts." Section 13-10-60 1(2)(b), MCA.

19

14.

Plaintiff Neumeyer signed the petition in Helena in February

20

2020. Neumeyer believed the petition was being advanced by an environmental

21

organization. She did not know the circulation of the petition was being funded

22

by the MTGOP, as explained below. Neumeyer generally supports the

23

Democratic Party and Democratic candidates for office. Had she known that the

24

MTGOP was behind the petition, she would not have signed it.

25

/////

Findings of Fact. Conclusions of Law. and Order-page 5
DDV -2020-856

App. 82

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 6 of 50

15.

1

PlaintiffWeed signed the petition in Bozeman in February

2

2020. Weed believed the petition circulator was working with the Montana

3

Green Party to get the Green Party on the ballot. Weed generally leans towards

4

supporting the Democratic Party and usually supports Democratic candidates for

5

office. She did not know the circulation of the petition was being funded by the

6

MTGOP. Had she known that the MTGOP was behind the petition, she would

7

not have signed it.

8

16.

9

Plaintiff Blossom signed the petition in in Bozeman in

February 2020. Based on his conversation with the petition circulator, Blossom

10

believed that the petition circulator was working with the Montana Green Party to

11

get the Green Party on the ballot. Blossom considers himselfto be a member of

12

the Democratic Party and supports Democratic candidates for office. He did not

13

know the circulation of the petition was being funded by the MTGOP. Had he

14

known that the MTGOP was behind the petition, he would not have signed it.
17.

15

By mid-February when the circulators had finished

16

collecting almost all of the petition signatures that they would eventually tum in,

17

there was not any public information as to whom was financing the Montana

18

Green Party petition effort, although there was discussion in the general news

19

media raising the question as to whom was financing this effort.

20

18.

On February 12, the Montana Green Party posted a message

21

on its Facebook page stating:

22

IIIII
IIIII
IIIII
IIIII

23
24
25

Findings of Fact, Conclusions of Law. and Order - page 6
DDV-2020-856

App. 83

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 7 of 50

We have been receiving notice that there are people falsely
collecting information on behalf of the Green Party. As of the
moment, we are still in a legal battle against the state ofMT, and in
such a state are not collecting, nor have we hired or asked for
volunteers to collect information this 2020 cycle ... As of now, we
have no house senate or state office candidates running for the 2020
election, at least until the lawsuit reaches resolution. Any individual
acting in rude or suspicious behavior claiming to be collecting
information on our behalf is not affiliated with our name and

1
2

3
4

5
6

7
8
9

mISSIOn.

See, Finding of Sufficiency, Luckey v. Advanced Micro Targeting,
No. COPP 2020-CFP-004, at 3 (June 25, 2020) (hereinafter Luckey).

10

19.

Local news reporters discovered that on February 14, the

11

Club for Growth Action, a political arm of a Washington D.C. SuperPAC, filed

12

paperwork with the Commissioner of Political Practices (COPP) as a committee

13

to petition to qualify a minor political party for primary elections, identifying the

14

Green Party as the minor party. Luckey at 2.

15

20.

In response to reporters' inquiries, however, a spokesman

16

for Club for Growth Action denied that it was behind the signature gathering

17

efforts. Luckey, at 2. The spokesman told MTN News on February 13 that Club

18

for Growth Action had explored undertaking that effort for the Montana Green

19

Party and then decided against it.

20

21.

As a result, well after the circulators had finished collecting

21

the petition signatures, Montanans still did not know who was financing the

22

Montana Green Party petition effort. For example, one local news report

23

published February 13 stated "A group other than the Montana Green Party has

24

been attempting to qualify the party for the 2020 ballot in Montana - but it's not

25

II/II

Findings of Fact, Conclusions ofI,aw, and Order- page 7
DDV·2020·856

App. 84

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 8 of 50

1
2

3
4
5

6

clear who." In a radio interview published February 21, one local reporter posed
the following question to her colleague:
[I]n the realm of shenanigans, some unknown group has gathered
signatures and submitted petitions around the state to qualify the
Green Party for the ballot, a move that is seen as possibly helping
Republican candidates. The Green Party in Montana says it's not
them. And a conservative PAC, the Club for Growth, says it's not
them either. So who is it?

7

8
9
10
11

Her colleague, a local politics reporter, responded: "That's a really
good question that I would like to find out the answer to .... [H]opefully we'll
see some sort of paperwork filed soon to give us an idea of who's behind it."
22.

During the 2019 legislative session, the Montana legislature

12

passed legislation to require prompt disclosure of contributions and expenditures

13

made to petition to qualify a minor political party for primary elections. Sections

14

13-37-601 to -607. These statutes became effective October 1,2019. Despite

15

these newly enacted statutes, Montanans did not know who was funding the

16

petition to place the Green Party on the ballot. This 2019 legislative action was

17

in response to a similar effort on the part of unknown individuals or groups in

18

2018 to petition to qualify the Montana Green Party for ballot access.

19

23.

In 2018, Advanced Micro Targeting, a Nevada political

20

consulting firm operating through thirteen paid signature gatherers, many from

21

out of state, independently collected 9,461 signatures from four counties in

22

support of the Montana Green Party petition. Larson v. State By & Through

23

Stapleton, 2019 MT 28 '1[4, 394 Mont. 167,434 P.3d 241. A representative of

24

the Green Party testified that it did not commission or coordinate with this

25

eleventh-hour paid signature gathering effort and was unaware of it untilleaming

Findings of Fact, Conclusions of Law, and Order - page 8
DDV -2020-856

App. 85

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 9 of 50

~

I

of it through news media reports. Jd.

2

Micro Targeting to comply with statutory requirements applicable to political

3

party petition signatures, this Court invalidated some of the affected signatures

4

and enjoined the Secretary from affording the Montana Green Party ballot access

5

in the 2018 general election. The Montana Supreme Court, by a six to one vote,

6

affirmed this Court's decision on appeal. Jd.

7

24.

4 n.2. Based on the failure of Advanced

~

65.

Based on the events surrounding the 2018 Montana Green

8

Party petition, MDP filed a campaign practices complaint with the COPP against

9

Advanced Micro Targeting, alleging that the firm failed to register and report

10

contributions and expenses for its electioneering activities performed through its

II

petition campaign.

12

25.

Thc COPP determined that Advanced Micro Targeting's

13

activities did not qualifY as expenditures under then-existing Montana campaign

14

finance law. The COPP dismissed MDP's complaint. Dismissal and Sufficiency

IS

Decision, Mont. Democratic Party v. Advanced Micro Targeting, No. COPP

16

2018-CFP-004, at 4-5 (July 20, 2018).

17

26.

As noted above, during the 2019 legislative session, the

18

Montana legislature enacted new campaign finance disclosure requirements

19

applicable to political party qualification petitions. As a result ofthe 2019

20

legislation, Montana law now imposes disclosure and reporting requirements on

21

efforts to petition to qualifY a minor political party for primary elections similar

22

to the requirements applicable to efforts to petition to qnalifY initiatives and

23

referenda. See §§ 13-37-601 et seq., MCA.

24

1/111

25

IIIII

Findings of Fact, Conclusions of Law, and Order-page 9

DDV-2020-856

App. 86

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 10 of 50

1

27.

Among the disclosure requirements mandated by these

2

statutes, organizations making efforts to qualify a minor political party for

3

primary elections using a political party qualification petition are now required to

4

file an organizational statement with the COPP within five days of spending or

5

receiving $500 towards the effort. § 13-37-602, MCA; § 13-37-601(4)-(7), MCA.

6

28.

The organizational statement is required to contain details

7

about the minor party qualification committee, including its name and complete

8

address, the identity of its treasurer and depository accounts, the names and

9

addresses of its officers, and an organizational statement.

10

29.

No entity filed an organizational statement under § 13-37-

11

602, MCA, as a minor party qualification committee for the petition with the

12

COPP until February 14, after almost all the petitions had been signed. The

13

February 14th filing, however, still did not reveal the entity funding the petition.

14

Club for Growth immediately denied that it was behind the signature gathering

15

effort. Luckey, at 2.

16

30.

According to the Secretary's pre-election calendar, the

17

deadline for petition circulators to submit minor party qualification petitions to

18

county elections offices was March 2nd.

19

31.

On March 6, the Secretary announced to county elections

20

officials and to the media that the Montana Green Party had submitted enough

21

signatures to satisfy the requirements of § 13-10-601, MCA. The Secretary thus

22

added the Green Party to the list of political parties on its website.

23

32.

The Secretary's announcement did not identify in which

24

house districts the petition had exceeded the minimum required number of

25

signatures or the number of signatures in each of those districts.

Findings of Fact, Conclusions of Law, and Order - page 10
DDV-2020-856

App. 87

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 11 of 50

1

33.

At the time of the Secretary's announcement on March 6,

2

Montanans still did not know who was financing the Montana Green Party

3

petition effort. For example, a local news report published on March 7 stated "It's

4

unclear who paid the out-of-state signature gatherers. Montana's Green Party has

5

said it wasn't them."

6

34.

As the news began to spread in late February and early

7

March that the Montana Green Party had not sponsored the petition to qualify the

8

Montana Green Party for ballot access, and that some unknown entity was behind

9

the effort, signers began to demand that their names be removed from the

10

petition. For example, Plaintiff Blossom attempted to withdraw his signature on

11

March 6. Plaintiff Weed attempted to withdraw her signature on March 5.

12

Blossom and Weed each filled out a signature withdrawal form the same day they

13

learned that the Montana Green Party had disavowed the petition to put the Green

14

Party on the ballot and submitted it shortly thereafter.

15

35.

Montana law has long recognized the right of petition

16

signers to withdraw their names from a petition. The Montana Legislature has

17

not provided specific statutory requirements that signers of political party

18

qualification petitions must follow to withdraw their names from such petitions.

19

36.

By contrast, Montana law does specify a process by which

20

signers of petitions for constitutional amendments, calls for constitutional a

21

convention, initiatives, or referenda may withdraw their signatures: and grants to

22

the Secretary the authority to prescribe the form to be used by an elector desiring

23

to have the elector's signature withdrawn from such a petition. Section 13-27-

24

301(3), MeA. This statute does not mention political party qualification

25

petitions nor is this statute incorporated by reference in the statutes governing

Findings of Fact, Conclusions of Law, and Order - page 11

DDV-2020-856

App. 88

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 12 of 50

1

political party qualification petitions. Cj, § 13-1 0-60 1(2)(c), MeA,

2

incorporating §§ 13-27-403 through 13-27-306, MeA, for process to be used in

3

verifying signatures on a political party qualification petition.'

4

37.

As noted, this statutory process for withdrawals from

5

petitions for a "constitutional amendment, constitutional convention, initiative, or

6

referendum" requires the Secretary to prescribe a form for the signer to use.

7

Section 13-27-301(3), MeA.

8
9

38.

The statutory process for withdrawals from petitions for a

"constitutional amendment, constitutional convention, initiative, or referendum"

10

also provides a deadline for withdrawals. That deadline is the same day that

11

petitions for a "constitutional amendment, constitutional convention, initiative, or

12

referendum" must be submitted to county elections officials. Section

13

13-27-301(1), (3), MeA:

14
15

16
17

Signatures may be withdrawn from a petition for constitutional
amendment, constitutional convcntion, initiative, or referendum up
to the time offinal submission of petition sheets as provided in
subsection (1). The secretary of state shall prescribe the form to be
used by an elector desiring to have the elector's signature withdrawn
fTOm a petition.

18
19

39.

Based on this statutory authority, the Secretary has

20

prescribed a withdrawal form for petitions for a "constitutional amendment,

21

constitutional convention, initiative, or referendum." The withdrawal form

22

expressly states that, "Signatures may be withdrawn from a petition for

23

constitutional amendment, constitutional convention, initiative, or referendum up

24

to the time of final submission of petition sheets to the county election office." Id.

25

This shows the legislarure's ability and awareness to incorporate starutes into the political party
qualification petition starutes if it desires to do so.

Findings of Fact, Conclusions of Law, and Order-page 12
DDV-2020-856

App. 89

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 13 of 50

1

The form does not reference withdrawal of signatures from a political party

2

qualification petition.

3

40.

The withdrawal form also requires that the "signer must sign

4

in the presence of a notary public or an officer of the office where the fonn is

5

filed." Id. However, the statute authorizing the Secretary to prescribe such a

6

form for withdrawals from petitions for a "constitutional amendment,

7

constitutional convention, initiative, or referendum" does not mention a

8

requirement that the form be notarized or signed in person in the presence of an

9

election official. Cf, § 13-27-301(3), MCA.

10

41.

The Secretary did not present, and the Court cannot find,

11

evidence that the Secretary's withdrawal form was prescribed through an

12

administrative rulemaking process, pursuant to § 2-4-302, MCA.

13

42.

Unlike § 13-27-301, MCA, governing the withdrawal of

14

signatures from a petition for a constitutional amendment, constitutional

15

convention, initiative, or referendum, no statutc grants the Secretary authority to

16

prescribe a form for withdrawing from political party qualification petitions.

17

Austin James, as chief staff attorney for the Secretary, advised the Secretary that

18

§ 13-27-301(3) was not relevant to signature withdrawal from a political party

19

qualification petition because the statutes expressly referenced by the political

20

party qualification statute do not include Section 13-27-301, MCA.

21

43.

Section 13-10-601(2)(a) directs and grants the Secretary the

22

authority to prescribe a fonn for petition circulators to use when gathering

23

signatures for a political party qualification petition. The Secretary has

24

prescribed such a form. That petition form does not require that a petition signer

25

sign in the presence of a notary or county elections official.

Findings of Fact, Conclusions of Law, and Order - page 13
DDV-2020-856

App. 90

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 14 of 50

1

44.

Nevertheless, the Secretary believed that petition signers

2

who wanted to withdraw their names from the Green Party qualification petition

3

must use the withdrawal form applicable to petitions for a constitutional

4

amendment, constitutional convention, initiative, or referendum. The Secretary's

5

election director testified that if a petition signer wishing to withdraw his or her

6

signature submitted a different f01111 or submitted a withdrawal form that was not

7

notarized or signed by a county elections official, it would not be honored.

8
9

45.

The Secretary has not prescribed any administrative rule or

issued any publicly accessible statement of policy regarding withdrawals from a

10

political party qualification petition. Likewise, the Secretary has not promulgated

11

through administrative rulemaking a form for a signer of a political party

12

qualification petition to use to withdraw their signature from such a petition.

13

46.

The Secretary did not notify the public or issue any publicly-

14

accessible statement regarding the Secretary's belief that petition signers who

15

wanted to withdraw their names from the Green Party qualification petition must

16

use the withdrawal form, or that if they submitted a different form, or submitted a

17

withdrawal form that was not notarized or signed by a county elections official, it

18

would not be honored. The Court has not found or been directed to any statute,

19

administrative rule, or public policy statement from the Secretary in support of

20

these positions of the Secretary.

21

47.

The Secretary did not notify the public or issue any publicly

22

accessible statement regarding the Secretary's belief that the deadline for signers

23

of political party qualification petitions to withdraw would be at the moment the

24

Secretary determined sufficiency and that the Secretary would not honor

25

withdrawal requests received after that moment. The Court has not found or

Findings of Fact, Conclusions of Law, and Order - page 14
DDV·2020-856

App. 91

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 15 of 50

1

been directed to any statute, administrative rule, or public policy statement from

2

the Secretary in support of these positions of the Secretary.
48.

3

The Secretary did not notify the public in advance or issue

4

any publicly-accessible statement that he would on March 6, 2020 make a

5

determination of sufficiency for the Green Party petition or that he would refuse

6

to accept any signature withdrawal forms that were submitted after that moment.

7

The Court has not found or been directed to any statute, administrative rule, or

8

public policy statement from the Secretary in support of these positions of the

9

Secretary.
49.

10

The Secretary did not notify the public or issue any publicly

11

accessible statement that the Secretary believed that a petition withdrawal request

12

that is electronically signed is not valid and would not be honored. The Court has

13

not found or been directed to any statute, administrative rule, or public policy

14

statement from the Secretary in support of this position of the Secretary.
50.

15

Regarding the Secretary's foregoing determinations as to

16

processes for the withdrawal of a petitioner signer's signature, the Secretary did

17

not provide any opportunity for public input or participation prior to adopting

18

these various determinations.
51.

19

On March 3, 2020, the same day the Secretary's Elections

20

Director received a legal memorandum from the Secretary's chief counsel

21

regarding signature withdrawal from a minor party petition, the Director sent an

22

email to county elections officials on that topic, revising prior guidance:

23

IIIII

24

IIIII

25

1111/

Findings of Fact, Conclusions of Law, and Order - page 15

DDV-2020-856

App. 92

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 16 of 50

1

2
3
4

5

There are questions about if an election office can accept a request
from a signer of a petition to withdraw their signature. Yes, in
reviewing this, any person signing the petition has the right to
withdraw at any time before the person or body created by law to
determine the matter submitted by the petition has finally acted.
52.

The Director's March 3 email, however, did not identify the

6

Secretary as "the person or body created by law to determine the matter

7

submitted by the petition." Likewise, the Director's March 3 email did not

8

identify the Secretary's act of announcing that a political party qualification

9

petition contained a sufficient number of signatures as "the time the person or

10

body created by law to determine the matter submitted by the petition has finally

11

acted." The Director's March 3 email also did not contain any statement

12

regarding the Secretary's belief that the deadline for signers of political party

13

qualification petitions to withdraw their signatures was March 6, 2020.

14

53.

The Director's March 3 email contained instructions for the

15

process for withdrawals, including an instruction to time stamp withdrawal forms

16

as they arrived in county election officials' offices, and that if there were no date

17

stamp, to determine the arrival date of the form with the best data available to the

18

county election officiaL

19

54.

The Director's March 3 email did not instruct county

20

elections administrators to review withdrawal forms for completeness or

21

compliance with any specific requirements. For example, the March 3 email did

22

not contain any instructions regarding whether a withdrawal form must be signed,

23

or what kinds of signatures are acceptable. The March 3 email did not instruct

24

county elections administrators to compare a signature on a withdrawal form to a

25

voter's signature on file with the county elections office. See, § 13-27-303,

Findings of Fact, Conclusions of Law, and Order - page 16

DDV·2020·856

App. 93

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 17 of 50

1

MeA, incorporated into political party qualification statute, requiring local

2

county election officials to check the names and signatures of petition signers

3

against county registration records of the office.
55.

4

5

The March 3 email was not made public until July 14, when

the Secretary disclosed it as an exhibit in this action.

6

56.

The Secretary's March 3 internal memorandum from

7

attorney Austin James opined that Section 13-27-301, MeA, which sets out the

8

statutory process for withdrawals from petitions for a "constitutional amendment,

9

constitutional convention, initiative, or referendum," is "not a relevant statute

10

regarding signature withdrawal from a political party qualification petition"

11

because the statutes expressly referenced by the political party qualification

12

statute do not include Section 13-27-301, MeA.
57.

13

14

Section 13-27-308, MeA, provides:

When a petition for referendum, initiative, constitutional
convention, or constitutional amendment containing a sufficient
number of verified signatures has been filed with the secretary of
state within the time required by the constitution or by law, the
secretary of state shall immediately certify to the governor that the
completed petition qualifies for the ballot.

15
16
17
18
19

This statute does not refer to §§ 13-10-601 through -605, MeA,

20

the political party qualification statutes, nor do the political party qualification

21

statutes refer to or incorporate this statute, regarding certification of a petition to

22

the governor. No statute provides that, for a political party qualification petition,

23

the Secretary is delegated authority to "certify to the governor" that a minor party

24

qualification petition meets the threshold to get on the primary ballot.

25

1111/

FiIldings of Fact, Conclusions of Law, and Order- page 17
DDV-2020·856

App. 94

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 18 of 50

58.

1

The Secretary did not introduce evidence that he certified to

2

the Governor that the political party qualification petition "qualifies for the

3

ballot."

4

59.

The Secretary's March 3 internal memorandum was not

5

made public until July 14, when the Secretary disclosed it as an exhibit in this

6

action.
60.

7

On March 24, more than two weeks after the Secretary

8

announced on March 6 the petition contained enough valid signatures, it was

9

revealed for the first time that the group funding the circulation of the petition

10

was the MTGOP. One local news report published on March 24 stated: "A

11

mystery ofthe 2020 election was solved Tuesday as it became clear the MTGOP

12

paid for an effort to qualifY the Montana Green Party for the ballot this election."

13

Ex. 16, at 1.
61.

14

Local reporters uncovered that the MTGOP Central

15

Committee contracted directly with a Texas-based petition signature gathering

16

firm, Advanced Micro Targeting, to hire paid circulators to gather signatures for

17

the petition. As the COPP later found, the MTGOP Central Committee made an

18

expenditure of $50,000 to Advanced Micro Targeting on January 21. Luckey,

19

pp. 1-2.
62.

20

The MTGOP Central Committee did not file an organization

21

statement as a minor party qualification committee with the COPP within five

22

days of spending $50,000 towards the effort, as required by §§ 13-37-602, and

23

§ 13-37-601(7), MCA. Luckey, p. 4.

24

IIIII

25

11111

Findings of Fact, Conclusions of Law, and Order - page 18

DDV -2020-856

App. 95

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 19 of 50

1

63.

Instead, on January 24, an entity called Montanans for

2

Conservation filed an organization statement with the COPP. Montanans for

3

Conservation did not file an organization statement as a minor party qualification

4

committee. Rather, it filed an organization statement as an independent political

5

committee with the COPP. Luckey, p. 2. On February 3, Montanans for

6

Conservation amended its organization statement. The amendment added a

7

statement that the committee "would serve as the minor party qualification

8

committee to qualify the Montana Green party to hold primary elections in

9

Montana." The amendment did not request a committee status change from an

10

independent committee to a minor party qualification committee. Luckey, p. 2.

11

64.

By registering as an independent political committee instead

12

of a minor party qualification committee, Montanans for Conservation concealed

13

its role in funding the petition. There are hundreds of independent committees

14

listed in the COPP's Campaign Electronic Reporting System database. By

15

contrast, there are only two minor party qualification committees listed in the

16

database. If an individual had at the time filtered the records in the Campaign

17

Electronic Reporting System to show only minor party qualification committees,

18

he or she would not have discovered the Montanans for Conservation filing.

19

65.

It was not until March 23, seventeen days after the

20

Secretary's March 6, announcement, that Montanans for Conservation filed

21

another amended organization statement to change its committee type from

22

independent committee to minor party qualification committee. Luckey, p. 2.

23

The next day, local reporters ran artieles revealing that Montanans for

24

Conservation was the entity serving as the minor party qualification committee

25

for the petition, and that the MTGOP Central Committee was the entity that

Findings of Fact, Conclusions of Law, and Order - page 19
DDV-2020-856

App. 96

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 20 of 50

1

contracted with and paid Advanced Micro Targeting to gather signatures for the

2

Green Party Qualification Petition.
66.

3

The only contributions to Montanans for Conservation were

4

a cash contribution of $800 from the MTGOP Central Committee to set up the

5

committee, and an in-kind contribution from the MTGOP Central Committee of

6

$100,000 for hiring Advanced Micro Targeting. Luckey, p. 4. No other entity

7

contributed to Montanans for Conservation. Id.
67.

8

Because the MTGOP Central Committee was the entity that

9

contracted directly with Advanced Micro Targeting to gather signatures on the

10

petition, the sole purpose of Montanans for Conservation was to serve as a shell

11

group to which the MTGOP Central Committee could attribute its expenditures.

12

This enabled the MTGOP Central Committee to avoid having to register as the

13

minor party qualification committee within five days of expending funds on

14

petition signature gathering activities.
68.

15

COPP later determined that Montanans for Conservation,

16

the MTGOP, and Club for Growth Action, violated Montana's campaign finance

17

law. Luckey, p. 8-10. COPP found that Montanans for Conservation failed to

18

timely file as a minor party qualification committee as required by Section 13-37-

19

602, MCA. Id. According to the COPP, this delay in reporting its efforts in

20

violation of Montana law "added to the confusion surrounding the Green Party

21

qualification effort in February and March of2020." Luckey, p. 8.
69.

22

As confusion proliferated over the Green Party petition

23

effort, MDP mobilized to inform signers that an unknown entity unaffiliated with

24

IIIII

25

IIIII

Findings of Fact, Conclusions of Law, and Order - page 20
DDV-2020-856

App. 97

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 21 of 50

1

the Montana Green Party---eventually revealed to be the MTGOP-was behind

2

the petition, and assisted signers who wanted to withdraw their names from the

3

Petition.
70.

4

To determine who had signed the petition, and the number

5

of signatures on the petition and in each house district, :MDP downloaded from

6

the Secretary's website a copy of the Petition Signers Report. The Secretary's

7

website describes the Petition Signers Report as "a county-by-county record of a

8

specific petition's signers" and contains fields for each signer, including the

9

signer's "County, Submittal Number, Sheet, Line, Voter ID, Name, Residence,

10

Status, Verification Reason (if the signature was rejected, the rejection reason

11

selccted by the county is included), House District, and Circulator."
71.

12

It was difficult for :MDP to reach signers of the petition.

13

MDP did not have email addresses, cell phone numbers or phone numbers for

14

many signers. Many phone numbers and addresses were incorrect or out of date.
72.

15

When :MDP organizers were able to reach signers and

16

inform them that the Montana Green Party was not involved in the petition, and

17

that the backers of the petition were unknown, some signers wanted to withdraw

18

their names from the petition.
73.

19

When it was revealed on March 24 that the MTGOP had

20

sponsored, organized, and paid for the circulation of the petition, there was a

21

significant increase in the number of signers who took steps to withdraw from the

22

petition. Four times as many signers sought to withdraw in the first two weeks

23

after March 24 as compared to the two weeks prior.

24

I1111

25

I1111

Findings of Fact, Conclusions of Law, and Order - page 21
DDV -2020-856

App. 98

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 22 of 50

1

74.

Many signers reached by MDP were surprised to learn that

2

the MTGOP was behind the Petition and that the Montana Green Party had

3

nothing to do with the petition. For example, until she was reached by MDP in

4

April, Plaintiff Neumeyer was not aware that the MTGOP had any involvement

5

in the Petition.

6

75.

Although MDP did not believe it was necessary for signers

7

of a political party qualification petition attempting to withdraw their signature to

8

complete the withdrawal form for signers of "constitutional amendment,

9

constitutional convention, initiative, or referendum" petitions,4 MDP advised

10

signers that county elections officials would likely accept that form, and took

11

steps to assist signers in completing and submitting such forms.

12

76.

The withdrawal form states that it should be signed in the

13

presence of a county elections official or a notary. Although some signers were

14

able to make the trip to their county elections office to sign the form or were able

15

to arrange a meeting with a notary to get the form notarized and submitted, for

16

other signers, these steps were burdensome. MDP attempted to assist where

17

possible by arranging for a notary to meet such signers at a convenient location

18

77.

Shortly before the Governor issued the stay-at-home order in

19

response to the COVID-19 pandemic, signers who wanted to withdraw their

20

signatures told MDP organizers that they were unable or unwilling to travel to a

21

county elections office or meet with a notary because of concerns about

22

maintaining social distancing and attempting to eliminate non-essential travel.

23
24

78.

MDP also arranged for online notary services for signers.

Those services, however, require a computer, a high-speed internet connection,

25
This is consistent with the opinion of the Secretary's chief counsel that the withdrawal fonn for
constitutional amendment, constitutional convention, initiative, or referendum was not relevant to withdrawing of

signatures on a political party qualification petition, a conclusion with which the Court agrees.
Findings of Fact. Conclusions of Law. and Order - page 22
DDV-2020·856

App. 99

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 23 of 50

1

video conferencing capability, installing software, and navigating the software's

2

user interface.
79.

3

The online notary solution proved difficult and cumbersome

4

for some signers, especially elderly voters who were unfamiliar with the

5

technology. For some signers, the online notary solution did not work at all; for

6

others, it took up to forty-five minutes to work.
SO.

7

Because the online notary service was not an option for

8

many signers, and because MDP did not want to encourage signers to risk their

9

health by venturing out, MDP set up a process that allowed signers to complete

10

the withdrawal form electronically from their computers or smmiphones and sign

11

the document using the electronic document signature platform DocuSign.

12

SI.

DocuSign collects and records information about the signer

13

and the signature, including the signer's email address, the signer's IP address,

14

and the date and time the document was transmitted, opened, and signed.

15

DocuSign collects the same information about the sender of the document-in

16

this case, the name, email address, and IP address of the MDP organizer who sent

17

a copy ofthe DocuSign withdrawal form to the signer of the petition. After the

18

signer affixes an electronic signature to a PDF, the document is assigned a unique

19

identifying code that allows for subsequent audits. DocuSign also provides an

20

electronic copy ofthe signed document to the signer for their records.
82.

21

MDP would receive copies ofthe electronically signed

22

withdrawal forms fi'om the signers and transmit them to county elections offices

23

by email in batches.

24

IIIII

25

/1/11

Findings ofF.ct, Conclusions of Law, and Order-page 23
DDV-2020·856

App. 100

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 24 of 50

83.

1

Plaintiff Neumeyer completed and signed a withdrawal form

2

via DocuSign on April 28, and MDP transmitted her form to the Lewis and Clark

3

County elections department on May 4.
84.

4

Plaintiff Filz did not testifY at the hearing. According to

5

Bolger and Miller, Filz completed and signed a withdrawal form on DocuSign on

6

April 3, and MDP transmitted his form to the Yellowstone County elections

7

department on April 13. The Secretary claims it did not receive a withdrawal

8

form from the Yellowstone County elections department on behalf of Filz.
85.

9

MDP was not informed by any county elections official that

10

the official would not accept DocuSign withdrawal forms because they were

II

electronically signed. Expressed differently, MDP was not informed by any

12

county elections official that withdrawal forms must have a "wet" signature. 5

13

Similarly, MDP was not informed by the Secretary that it would not accept

14

DocuSign withdrawal forms because they were electronically signed. Likewise,

15

the Secretary did not inform MDP or anybody who submitted a signature

16

withdrawal form of any requirement that withdrawal forms must have a "wet"

17

signature.
86.

18

On April 13, the Yellowstone County Election Administrator

19

stated that he was forwarding MDP's transmission of withdrawal forms with

20

electronic signatures to the Secretary. On May 13, the Lewis & Clark County

21

Election Administrator stated that she was sending MDP's transmission of

22

withdrawal fOlms with electronic signatures to the Secretary.

23

111I1

24
25
A 'wet ink' signature is where the parties to the document write (sign) their names with their own hands
upon a paper document by ink pen. Although some specific types oflega\ documents do still have to be signed by
the traditional 'wet ink' method, most documents including commercial contracts can be signed by electronic
signature." https:llwww .nextgearcapital.co.uklhelp-centre/how-to-use-docusign/what-is-the-difference-hetween-

an-electron i c-s ign ature-and -a-wet -ink -signature/

Findings of Fact. Conclusions of Law, and Order - page 24
DDV -2020·856

App. 101

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 25 of 50

1

87.

On May 4, 2020 and again on May 22, 2020, at the request

2

of the Missoula County Election Administrator, MDP sent withdrawal forms with

3

electronic signatures directly to the Secretary.

4

88.

The Secretary's Petition Signers Report identifies each

5

signer ofthe petition and whether the Secretary accepted and counted a signature

6

towards the total number of verified signatures of registered voters required from

7

each house district.

8

9
10
11

89.

The Petition Signers Report identifies 116 signatures the

Secretary rejected and did not count towards the total number of verified
signatures because the signer withdrew his or her signature.
90.

The Petition Signers Report indicated that the signatures of

12

Plaintiffs Blossom, Filz, Neumeyer, and Weed were among the signatures

13

accepted and counted towards the total number of required signatures.

14

91.

The Petition Signers Report indicates that the Petition

15

exceeded the required number of accepted signatures in forty-two house districts,

16

including house districts 46,53,54,68,69,80,84,96, and 97.

17

92.

By late May, over 500 signers of the petition who were

18

marked in the Petition Signers Report as accepted and counted towards the

19

required number of accepted signatures had submitted requests to withdraw their

20

signature. MDP obtained copies of withdrawal forms submitted to counties and

21

to the Secretary through public records requests and by retaining copies of

22

withdrawal forms that MDP transmitted to counties or to the Secretary on

23

signers' behalf.

24

25

93.

All but ten of these withdrawal forms were received by

county elections offices no later than June 1, as demonstrated either by a stamp or

Findings of Fact, Conclusions of Law, and Order-page 25
DDV-2020·856

App. 102

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 26 of 50

1

notation placed on the form, by the date that MDP transmitted the forms to the

2

counties, or based upon metadata contained in the documents produced by

3

counties and the Secretary in response to MDP's public records requests. Ten

4

additional withdrawal forms were received by county elections offices no later

5

than June 12.
94.

6
7
8

9

After accounting for the withdrawal forms set out in

Plaintiffs' Exhibits 4 and 5, the Petition contains signatures above the thresholds
set by the Political Party Qualification Statute in no more than 33 House
Districts, as set forth in Plaintiffs' Exhibit 7:

Signatures
Required

Signatures
Accepted by
Secretary (Petition
Signers Report)

138
129
130
106
109
132
150
150
138

161
160
166
136
141
180
208
229
195

10
11

House District

12
46
53
54
68
69
80

13
14
15
16
17

84

18

96
97

Signatures
Withdrawn

Remaining
Signatures
Accepted by
Secretary

At least 29
At least 36
At least 46
At least 43
At least 39
At least 53
At least 74
At least 91
At least 68

At most 132
At most 124
At most 120
At most 93
At most 102
At most 127
At most 134
At most 138
At most 127

19
95.

20

Plaintiffs' Exhibit 7 uses the number of signatures withdrawn

21

based on withdrawal forms received by county elections offices or the Secretary

22

no later than June 12. If the chart used the number of signatures withdrawn based

23

only on withdrawal forms received by county elections offices or the Secretary no

24

later than June 1, the conclusion would not change: the petition contains

25

IIIII

Findings of Fact, Conclusions of Law, and Order - page 26
DDV-2020-856

App. 103

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 27 of 50

1

signatures above the thresholds set by the political party qualification statute in no

2

more than 33 House Districts.
96.

3

As conceded by counsel for the Secretary in closing

4

argument, if the Court determines that all the withdrawal requests contained in

5

Plaintiffs' Exhibit 5 should be given effect, the petition does not meet the

6

statutory threshold for qualification.
97.

7

8

Kendra Miller, the former data director ofMDP, obtained

and relied upon Petition Signers Reports for numerous petitions in the past.
98.

9

In 2018, in Larson v. State By ~ Through Stapleton,

10

2019 MT 28 ~ 4,394 Mont. 167,434 P.3d 241, MDP requested a copy of the

11

Petition Signers Report for the 2018 Green Party petition, and introduced into

12

evidence numerous exhibits that expressly relied upon the data in the Petition

13

Signers Report. See, e.g., Apr. 24, 2018 Hrg. Tr. 48:20-66:10, Larson et al v.

14

Stapleton, CDV 2018-295 (1st Jud. Dist. Ct. 2018). Counsel for the Secretary in

15

the Larson case did not object to the introduction of these exhibits based upon

16

Petition Signers Report data. Nor did the Secretary reveal that the Petition

17

Signers Report was not the record of the petition's signers, and that a different

18

record maintained by the Secretary contained the true record ofthe petition's

19

signers. Corson, testifying on behalf of the Secretary in the Larson case, did not

20

testify that the Petition Signers Report was not the record of the petition's

21

signers, or that a different record maintained by the Secretary's office contained

22

the record ofthe petition's signers. In rendering their decisions in Larson, this

23

Court and the Montana Supreme Court relied upon those exhibits containing data

24

from the Petition Signers Report.

25

IIIII

Findings of Fact, Conclusions of Law, and Order-page 27

DDV-2020-856

App. 104

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 28 of 50

99.

1

MDP first obtained a copy of the Petition Signers Report for

2

the Green Party petition from the Secretary on March 12 and relied on it to

3

determine how many withdrawal forms had not been honored by the Secretary

4

and to calculate the effect on the Green Party petition's sufficiency if those

5

withdrawals were honored.

6

100. During the July 14-15 evidentiary hearing, Elections

7

Director Corson, testifYing on behalf of the Secretary, stated for the first time that

8

the Petition Signers Report was not the official record of the signers of the

9

petition. Corson testified that the Secretary used a different decisional document

10

to record the signers of the petition and whether their signatures were accepted or

11
12

rejected, and to determine whether the petition contained a sufficient number of
signatures under the political party qualification statute.
101. The Petition Signers RepOli indicates that Plaintiffs Weed's

13

and Blossom's signatures were accepted and counted towards the thresholds set
14
by the political party qualification statute in their House Districts. Elections
15
16
17
18

Director Corson testified that withdrawal forms submitted by Weed and Blossom
were received, and that their signatures were not counted towards the thresholds.
Corson testified that the separate decisional document reflected this disposition of
Weed's and Blossom's withdrawal forms.

19

102. The Secretary did not produce this separate decisional

20

document to MDP in response to their public records request for the Petition

21

Signers Report.

22

103. Until the July 14 evidentiary hearing, the Secretary had not

23

informed MDP or the general public that a separate decisional document

24

contained the record of the signers ofthe petition and whether their signatures

25

IIIII

Findings of Fact, Conclusions of Law, and Order-page 28
DDV-2020-856

App. 105

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 29 of 50

1

were accepted or rejected. The Secretary did not offer this separate decisional

2

document as an exhibit. The document is not part of the record before the Court.

3

104. Director Corson submitted a chart purporting to contain the

4

number of accepted signatures in each house district. Plaintiffs' Exhibit 1

5

compares the number of accepted signatures in each house district as set forth in

6

Director Corson's chart with the number of accepted signatures set forth in the

7

Petition Signers Report. In twelve house districts, Corson's chart records fewer

8

accepted signatures than the Petition Signers Report. In one house district,

9

Corson's chart records more accepted signatures than the Petition Signers Report.

10

105. Plaintiffs' Exhibit 7 uses the number of signatures marked as

11

accepted by the Secretary's Petition Signers Report. If Exhibit 7 instead used the

12

number of signatures marked as accepted on the Corson chart, the conclusions

13

would not change: the petition contains signatures above the thresholds set by the

14

political party qualification statute in no more than thirty-three I-louse Districts.

15

106. After filing an emergency request to continue the hearing,'

16

the Secretary purported to compile records of withdrawal forms in his possession

17

at the time and attempt to determine the effect of honoring such withdrawal

18

forms. The Secretary's compilation, however, did not include all the withdrawal

19

forms that had been submitted to county elections offices.? The Secretary's

20

compilation purported to analyze the effects by house district, but the tabulation

21

is inaccurate because the Secretary relied on current address information rather

22

than address information at the time of petition signing and did not assign all

23

individuals to a house district. The Secretary did not provide the Court with the

24

underlying withdrawal forms on which his tabulation is based.

25
6

To he clear, the Court does not dispute that the Secretary's emergency motion to continue the hearing was

filed in good faith.
Corson testified that the Secretary could not count withdrawal fOnTIS it had not received. While this is true,
the Secretary had advised county election officials that withdrawals received after March 6 should not be counted.

7

Findings of Fact, Conclusions of Law, and Order - page 29
DDV -2020-856

App. 106

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 30 of 50

1

107. At least 562 signers of the Petition submitted requests to

2

withdraw their signature that the Secretary has not honored, according to the

3

Petition Signers Report.

4

108. The Secretary's failure to honor signers' requests to

5

withdraw their signature injures these signers because their signatures are being

6

counted in support of a petition that they no longer wished to support, as

7

demonstrated by their submission of requests to withdraw their signature.

8

l09. The Secretary's failure to honor signers' requests to

9

withdraw their signatures also injures these signers because they continue to be

10

associated with a petition and a petition sponsor with whom they no longer wish

11

to be associated. For example, Plaintiffs Neumeyer, Weed, and Blossom testified

12

they are not supporters of the MTGOP, do not support a petition whose purpose

13

is hanning the Democratic Party, and do not want to be associated with the

14

MTGOP or its efforts relative to the petition.

15

llO. If the Green Party qualifies for ballot access pursuant to the

16

Petition, MDP would be harmed both financially and electorally. MDP would be

17

harmed financially because it would need to spend additional funds on voter

18

persuasion, voter education, and polling, and would have to expend additional

19

time and resources to address an additional swath of center-left voters. MDP

20

would be harmed electorally because voters who might otherwise vote for MDP

21

candidates might vote instead for Green Party candidates.

22

Ill. MDP's mission is to elect Democratic Party candidates in

23

local, county, state, and federal elections. MDP works to accomplish this

24

mission through its efforts to educate, persuade, mobilize, assist, and tum out

25

voters throughout the state.

Findings of Fact, Conclusions of Law, and Order - page 30
DDV-2020·&56

App. 107

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 31 of 50

1

112. In past elections, MDP expended millions of dollars to

2

persuade and mobilize voters to support candidates who affiliate with the

3

Democratic Party in Montana. MDP again intends to make substantial

4

expenditures to support Democratic candidates in the 2020 general election and

5

in future elections.
113. If candidates nominated in the primary election for the

6
7

Green Party as a result ofthe petition are given ballot access in the 2020 General

8

Election, MDP will incur additional expenditures and will divert resources from

9

other MOP priorities.

10

114. These expenditures and diversions of resources would be

11

caused by the need for MDP to educate voters about the differences between

12

candidates from the Democratic Party and candidates nominated in the Green Party

13

primary, and to persuade voters to vote for candidates from the Democratic Party

14

over candidates nominated in the Green Party primary.

15

115. For example, MDP will need to calibrate their internal voter

16

file differently to target a different ideological area of the universe of voters MDP

17

needs to reach to convince them to vote for MDP candidates. This is not

18

something that MDP has planned for and would require MDP to spend money and

19

time to address.

20

116. MDP would also need to contact more voters for persuasion,

21

which in tum requires more volunteers, staff, and campaign materials. MDP would

22

need to put out more expensive and more complicated polling to determine which

23

kinds of voters to target and what kinds of messages to use. All these efforts cost

24

money, and MDP would need to devote additional time and effort to fundraising to

25

accomplish them.

Findings of Fact, Conclusions ufLaw, and Order- page 31
DDV·2020-856

App. 108

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 32 of 50

From the foregoing findings of fact, the Court draws the following:

1

CONCLUSIONS OF LAW

2
3

1.

The Court has jurisdiction to grant declaratory and

4

injunctive relief pursuant to the Montana Uniform Declaratory Judgments Act,

5

Section 27-8-101 et. seq. MCA, and Sections § 27-8-201 et seq., MCA, which

6

authorize the Court to declare rights, status, and other legal relations among the

7

parties. See Larson, '\l31.
2.

8
9
10
11
12
13

As a court of general jurisdiction, this Court has authority to

hear Plaintiffs' claims under the Montana Constitution. See Section 3-5-302,
MCA.

3.

The Court has subject matter jurisdiction to determine the

validity of a political party qualification petition, like this one. Larson, '\l 43.
4.

MDP has standing to assert the claims in the Complaint

14

because it is injured by the Secretary's failure to give effect to Montanans'

15

withdrawal requests seeking to remove their names from the Petition. Allowing

16

the Montana Green Party to qualify under the political party qualification statute,

17

and thus obtain primary and general election ballot access, when it has not shown

18

sufficient support as required by statute, would result in MDP having to expend

19

additional funds and resources to educate and persuade voters to support

20

Democratic candidates over candidates claiming to be affiliated with the Montana

21

Green Party in the 2020 general election. See Larson, '\l43.

22

5.

MDP also has standing to assert the claims in the Complaint

23

because MDP, which performs the functions of a membership organization by

24

providing the means by which Democratic voters in Montana express their

25

collective views and protect their collective interest, is harmed because some of

Findings of Fact, Conclusions of Law, and Order-page 32
DDV-2020-856

App. 109

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 33 of 50

1

its members or associates, including but not limited to Plaintiffs Blossom,

2

Neumeyer, and Weed, are injured by being forced to associate with a petition of a

3

political party with which they never wanted to be associated and by being

4

deprived of their right to withdraw their names from that petition.

5

6.

Plaintiffs Blossom, Neumeyer, and Weed have standing to

6

assert the claims in the Complaint because they will suffer a concrete injury by

7

being forced to be associated with a petition organized and funded by a political

8

party with which they do not want to be associated, and by being deprived of

9

their right to withdraw their names from the petition.
7.

10

Montanans have the right to withdraw their signatures from

11

a petition. State ex rei. Lang v. Furnish, 48 Mont. 28, 36, 134 P. 297, 300 (1913)

12

("signers of a petition have an absolute right to withdraw therefrom at any time

13

before final action thereon"); See also Ford v. Mitchell, 103 Mont. 99, 61 P. 2d

14

815, 822 (1936) ("[1]hc signers of an initiative petition may, in an appropriatc

15

manner and at the proper time if they so desire, withdraw from such petition.").

16

The Montana Supreme Court has described this longstanding right as "a

17

necessary inference from the very nature ofthe right of petition." Lang, 134 P.

18

at 300.

19

8.

Pursuant to this right, individuals can withdraw their

20

signature so long as: (1) there is no express legal prohibition on doing so; and (2)

21

individuals withdraw before final action is taken on a petition. Lang, 134 P. at

22

300; Ford, 61 P. 2d at 821 (finding right to withdraw in the absence of "an

23

express sanction or prohibition of withdrawals").

24
25

9.

Even after final action is taken on a petition, signers may

still withdraw if signers learn that representations made to them as an inducement

Findings of Fact, Conclusions of Law , and Order - page 33

DDV-2020-856

App. 110

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 34 of 50

1

to sign the petition, and on which they relied, were false. State ex rei. Peckv.

2

Anderson, 92 Mont. 298, 306, 13 P.2d 231,234 (1932).

3

10.

The statutes governing political party qualification petitions

4

do not contain any express prohibition against persons who have signed the

5

petition from withdrawing their signatures.

6

11.

The statutes governing political party qualification petitions

7

do not defme what constitutes final action for the purposes of those statutes. Nor

8

do those statutes confer any express authority on the Secretary to certifY that a

9

minor political party has submitted sufficient signatures to qualifY for the general

10
11

ballot. This contrasts with the statute governing petitions for initiatives,
. referenda, constitutional amendments, or calls for constitutional conventions.

12

Section 13-27-308, MeA, provides that the Secretary, after tabulating signatures

13

for a "petition for referendum, initiative, constitutional convention, or

14

constitutional amendment," "shall immediately certifY to the governor that the

15

completed petition qualifies for the [general election] ballot." This statute, by its

16

. plain terms, does not apply to political party qualification petitions. Although the

17

political party qualification statutes incorporate by reference certain statutes

18

applicable to ballot issues, Section 13-27-308, MeA is not among those statutes.

19

See Section 13-10-601, MeA. The political party qualification statute makes no

20

mention of certification by the Secretary, to the Governor or to anybody else, and

21

no other statute delegates certification authority to him.

22

12.

The process by which a political party not otherwise eligible

23

for listing on the primary ballot under § 13-10-601(1), MeA, defines only a

24

process by which a "minor" political party may nominate its candidates by a

25

primary election. The statute is silent as to the general election. The purpose of

Findings of Fact, Conclusions of Law, and Order - page 34
DDV -2020-856

App. 111

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 35 of 50

1

this statute is thus different than that for approval of an initiative, referendum,

2

constitutional amendment, or constitutional convention. In these latter petitions,

3

the proposed change to statute or constitution is to be voted on by the electorate

4

at the general election. Initiatives, referenda, constitutional amendments, or

5

constitutional conventions are placed directly upon the general election ballot so

6

long as proponents submit enough valid signatures by the deadline-there is no

7

requirement to first go through a primary election or to take any other

8

preliminary steps. See Mont. Const. art. III, § 4. Once the Secretary certifies to

9

the Governor that the initiative petition qualifies for the ballot, Section

10

13-27-308, MCA, there are no other procedural steps or contingencies that must

11

occur before all voters are afforded the right to vote on the initiative.
13.

12

Political party qualification petitions serve a di fferent

13

function than initiative' referenda, constitutional amendments, and constitutional

14

conventions petitions. Final action for purposes of an initiative petition is not the

15

same as fmal action for purposes of a political party qualification petition, The

16

unique characteristics of petitions for political party qualification in Montana

17

compel the conclusion that action on such a petition is not final until votes have

18

been cast and canvassed in the primary election and certificates of nomination

19

have issued.

20

14.

Filing a political primary qualification petition is one of

21

several initial steps in a process through which voters decide whether a political

22

party's candidates in a primary election will obtain ballot access in the general

23

election. Primary election voters make the ultimate decision whether to nominate

24

candidates for office through this procedure, and the state canvassing board,

25

which counts votes and issues certificates of nomination based on those votes, is

Findings of Fact, Conclusions of Law, and Order - page 35
DDV -2020-856

App. 112

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 36 of 50

1

"the person or body created by law to determine the matter submitted by the

2

petition[.]" See State ex reI. 0 'Connell v. Mitchell, 111 Mont. 94, 106 P.2d 180,

3

181 (1940) (citing Ford, 61 P.2d 815).

4

15.

The filing of a political party qualification petition with the

5

Secretary simply initiates this multi-step procedure that a party's voters may use

6

to determine who to nominate, but no right to ballot access is acquired until

7

primary votes have been cast and counted for candidates ru=ing for a party's

8

nomination. Accordingly, no final action is taken on the petition until that time.

9

See Town o/Blooming Grove v. City a/Madison, 253 Wis. 215, 33 N.W.2d 312

10

(1948). (Holding that tabulation of the signatures on a petition was a necessary

11

step in a process that concluded with a vote on the ordinance proposed by the

12

petition, but the court held that no final action had occurred, and no rights were

13

acquired by anyone, until the vote on the ordinance was finally taken).

14

16.

The Secretary's tabulation of the number of signatures on a

15

political party qualification petition and a=ouncement that the petition meets the

16

requirements of the political party qualification statute confers no right to

17

placement on the general election ballot. No statute so holds. The act of

18

sUbmitting a political party qualification petition simply authorizes a political

19

party to use the state-administered procedure of a primary election to determine

20

whether to nominate candidates and which candidates to nominate.

21

17.

Many other procedural requirements and contingencies must

22

first be met before a primary election can even take place: candidates for the

23

nomination of the political party must: (1) timely file a declaration of nomination,

24

Section 13-10-201, MCA; (2) not die or withdraw their candidacies, Section

25

13-10-326, MCA; (3) maintain their constitutional and statutory eligibility for the

Findings of Fact. Conclusions of Law, and Order - page 36
DDV-2020·856

App. 113

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 37 of 50

1

offices in question, Section 13-12-201(3), MCA; and (4) file certain campaign

2

finance and business disclosure statements and reports, Section 13-37-126, MCA.
18.

3

In addition, candidates for a nomination must stand for

4

primary election and receive voters from electors; the act of seeking a party's

5

nomination has no legal significance until votes are canvassed and counted and

6

until certificates of nomination are issued. Section 13-15-507, MCA (state

7

canvassing board declares nominated the individual having the highest number of

8

votes); see also Section 13-10-303, MCA (providing that candidates nominated

9

by more than one party must choose one party or appear on the general election

10

ballot without a party designation).
19.

11

Montana statutes do not support the Secretary's claim that

12

he has the authority to "certify" a political party qualification petition to the

13

Governor, or that his act of determining and announcing sufficiency constitutes

14

final action on the petition. A political party qualification petition confers no

15

access to the general election ballot without additional procedural steps and

16

contingencies. The Secretary could not have certified to the Governor that the

17

petition "qualifies for the ballot," like an initiative petition or referendum would.
20.

18

To illustrate the issue, if a petition is submitted and a

19

primary election is held for which no qualified persons received any votes, would

20

defeat the petition and the party would have no right to appear on the general

21

election ballot. The Court concludes that under the unique procedures applicable

22

to petitions for political party qualification, it is not until the Board of State

23
24
There is evidence before the Court that the Montana Green Party disavowed the signature gathering process
and has also disavowed the persons filing under the Green Party banner as not being true Green Party members or
adherents. See, § 13-10-602(1), MCA: "(I) Except as provided in subsection (3), a political party and its regularly
nominated candidates, members, and officers have the sole and exclusive right to the use of the party name. A
candidate for office may not use any word of the name of any other political party or organization other than that
by which the candidate is nominated in a manner that indicates or implies the individual is a candidate of the
nonnominating party."

8

25

Findings of Fact, Conclusions of Law, and Order - page 37
DDV-2020-856

App. 114

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 38 of 50

1

Canvassers tabulates the votes that the process is final. Until that date, there is no

2

final action on the petition. Therefore, the withdrawal requests at issue here-

3

nearly all submitted prior to the June 2, 2020 primary election, and all before

4

June 12, 2020-must be given effect because they were submitted to officials

5

before final action was taken on the political party qualification petition.

6

21.

Even assuming that the Secretary had authority to take "final

7

action" on a political party qualification petition under some circumstances, the

8

evidence at trial revealed that the Secretary's actions in connection with the

9

petition, which were not revealed to the public, cannot constitute final action.

10

22.

Article II, § 8 ofthe Montana Constitution requires that

11

government agencies conduct a transparent process that allows for public input

12

"prior to the final decision." Mont. Const. Art. II, § 8. Bryan v. Yellowstone Cty.

13

Elementary Sch. Dist. No.2, 2002 MT 264, ~ 39,312 Mont. 257, 269, 60 P.3d

14

381,390 (discussing "the constitutional mandate on open government.").

15

23.

The Secretary has purported to issue "final action" on the

16

petition without first announcing his cutoff date or the procedural requirements

17

applicable to withdrawals, and without disclosing, even to this Court, the data

18

underlying his decision, despite knowing that such data was squarely at issue in

19

this litigation. The Secretary also announced for the first time during this case, in

20

a motion for summary judgment, that he has a policy forbidding electronic

21

signatures on petition withdrawal forms.

22

24.

While the Montana Supreme Court has not definitely

23

resolved what "final action" generally means in the context of a political party

24

qualification petition, it cannot be what the Secretary contends it is under these

25

circumstances: an announcement of sufficiency based upon a decisional

Findings of Fact, Conclusions of Law, and Order - page 38
DDV -2020-856

App. 115

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 39 of 50

1

document not revealed to the public, made without prior notice that the Secretary

2

would refuse to honor withdrawal requests past a certain date, which date was not

3

revealed, and made without prior notice of purported procedural requirements

4

that withdrawal requests would have to satisfy. Cj, State ex reI. Lang v. Furnish,

5

48 Mont. 28, 134 P. 297 (1913) (board of county commissioners set a hearing

6

date to consider petition and counter-petitions supporting and opposing formation

7

of a new county).

8

25.

In addition, "final action" necessarily presupposes a final

9

decision by "the person or body created by law to determine the matter submitted

10

by the petition," so even if the Secretary were such person, the Secretary's choice

11

to shield the process, applicable procedural requirements, and decisional

12

documents from the public means that his decision cannot be a "final action" that

13

precludes the withdrawal requests submitted in this case from being honored.

14

"The public has the right to expect governmental agencies to afford such

15

reasonable opportunity for citizen participation in the operation of the agencies

16

prior to the fmal decision as may be provided by law." Mont. Const. Art. II, § 8.

17

"No person shall be deprived ofthe right to examine documents or to observe the

18

deliberations of all public bodies or agencies of state government and its

19

subdivisions, except in cases in which the demand of individual privacy clearly

20

exceeds the merits of public disclosure." Mont. Const. Art. II, § 9.

21

26.

These constitutional limits on the Secretary's power comport

22

with similar legal principles, like those codified in the Montana Administrative

23

Procedure Act, Sections 2-4-101 et seq., MCA. Under that statute, state agencies

24

must "make available for public inspection all rules and all other written

25

statements of policy or interpretations formulated, adopted, or used by the agency

Findings of Fact, Conclusions of Law, and Order - page 39

DDV-2020-856

App. 116

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 40 of 50

1

in the discharge of its functions." Section 2-4-103(1)(a), MCA. When an agency

2

fails to do so, it exceeds its authority, and its interpretations have no legal effect.

3

See Section 2-4-103(3), MCA ("No agency rule is valid or effective against any

4

person or party whose rights have been substantially prejudiced by an agency's

5

failure to comply with the public inspection requirement herein.").
27.

6
7

prescribe forms for withdrawing from political party qualification petitions.
28.

8
9
10

The Legislature has not granted the Secretary authority to

The Legislature has not granted the Secretary the authority

or directed him to certifY, to the to the governor or otherwise, the results of a
political party qualification petition.

11

29.

The Legislature has not established a statutory deadline for

12

submitting requests to withdraw signatures from a political party qualification

13

petition.

14

30.

The Secretary has not properly adopted rules or public

15

policies to prescribe forms and requirements for withdrawing from political party

16

qualification petitions or established a deadline for submitting requests to

17

withdraw signatures from a political party qualification petition.
31.

18

Therefore, the Secretary's determinations of a cut-off date

19

for the withdrawal of signatures from the political party qualification petition and

20

offorms and requirements for withdrawing signatures from the petition in this

21

matter were without statutory authority and were arbitrary and capricious.
32.

22

Further, the withdrawal requests at issue are valid because

23

Plaintiffs and other petition signers withdrew after learning that representations

24

made to induce them to sign the petition were false.

25

IIIII

Findings of Fact, Conclusions of Law , and Order - page 40
DDV -2020-856

App. 117

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 41 of 50

33.

1

The identity ofthe group that sponsored and organized the

2

petition-the MfGOP-was not revealed until well after signers signed the

3

petition and the Secretary found that the signatures satisfied the requirements of

4

the political party qualification statute.

5

34.

Montana law provides that even after final action is taken on

6

a petition, signers can still withdraw if they learn that representations made to

7

them as an inducement to sign the petition, and on which they relied, were false.

8

See, Anderson, 92 Mont. at 298, 13 P.2d at 231, 234.

9

35.

To detennine when a misrepresentation justifies a

10

signatory's withdrawal, courts often apply general common law and statutory

11

principles of contract and tort law. See Anderson, 13 P .2d at 234 (citing contract

12

principles); see also Nelson v. Morse, 91 N.H. 177, 177 (1940) (drawing on

13

principles oftort law to disqualify signatures obtained by deception) ("[FJraud

14

lies in silence or concealment which constitutes dishonesty as well as in actual

15

misrepresentations [.]").

16

36.

Montana law provides for an independent statutory

17

prohibition on the willful deception of another with the intent to induce that

18

person to act. See, e.g., Section 27-1-712(2)(c), MeA (describing deception as

19

including "the suppression of a fact by one who is bound to disclose it or who

20

gives infonnation of other facts that are likely to mislead for want of

21

communication of that fact"); Dewey v. Stringer, 2014 MT 136, ~ 15,375 Mont.

22

176, 182,325 P.3d 1236, 1241.

23

37.

The doctrine of negligent misrepresentation imposes liability

24

on those who make untrue representations about material facts with the intent to

25

IIIII

Findings of Fact, Conclusions of Law, and Order - page 41
DDV-2020-856

App. 118

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 42 of 50

1

induce reliance. See Morrow v. Bank ofAm., N.A., 2014 MT 117, ~ 45,375

2

Mont. 38, 52, 324 P .3d 1167, 1180 (citing Kitchen Krafters v. Eastside Bank, 242

3

Mont. 155, 165,789 P.2d 567,573 (1990).
38.

4

The doctrine of constructive fraud provides both contractual

5

and damages remedies-including the right of rescission-for the breach of a

6

duty which, even without fraudulent intent, creates an advantage for the

7

breaching party by misleading another person to that person's prejudice. See

8

Morrow,

9

109,714 P.2d 536,543 (1986) (noting that a material misrepresentation sufficient

~

62; Section 28-2-406(1), MCA; McGregor v. Mommer, 220 Mont. 98,

10

to constitute constructive fraud that can lead to rescission of a contract may be

11

implicit, such as when a party "create[s] a false impression concerning ...

12

important matters and subsequently fail to disclose the relevant facts").

13

39.

The doctrine of unilateral mistake justifies rescission of a

14

contract when one party has a "belief in the present existence of a thing material

15

to the contract which does not exist or in the past existence of such a thing which

16

has not existed," and the other party knew or suspected the mistake. See E.H

17

Oftedal & Sons, Inc. v. State ex reI. Mont. Transp. Comm 'n, 2002 MT I,

18

308 Mont. 50, 64-65, 40 P.3d 349,358; Section 28-2-409(2), MCA.

19

40.

~

47,

The actions taken by the MTGOP and their agents to induce

20

Montanans to sign the petition without disclosing their role in organizing and

21

sponsoring the petition closely track the elements of each of these doctrines, and

22

by analogy, justify the acceptance of withdrawal forms at issue in this case.

23

41.

The MTGOP and its agents failed to properly and timely

24

disclose its involvement in the petition in violation of Montana's campaign

25

finance rules, and only made such disclosure wccks aftcr signers had signed the

Findings of Fact. Conclusions of Law, and Order - page 42

DDV-2020-856

App. 119

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 43 of 50

1

petition and even after it was submitted to officials. See 27-1-712(2)(c), MCA

2

(deceit entails "the suppression of a fact by one who is bound to disclose it" or

3

"giving facts that are likely to mislead for want of communication"); Morrow,

4

45 (negligent misrepresentation requiring an untrue representation made without

5

any reasonable ground for believing it to be true); Dewey, ~ 9 (constructive fraud

6

requiring a false representation with knowledge of its falsity).
42.

7

These misrepresentations and failures to disclose mattered to

8

signers, who would not have signed the petition had they known who was

9

sponsoring and organizing it, and who took action to withdraw their signature

10

~

once they learned what had happened.

11

43.

The actions of the MTGOP and its agents demonstrate that

12

its misrepresentations and failures to disclose in violation of Montana campaign

13

finance law were intentionally designed to create an advantage for the MTGOP at

14

the expense of unwitting signers. The MTGOP's conduct regarding its disclosure

15

obligations-under a disclosure regime enacted in direct response to the very

16

same petitioning firm gathering signatures for the very same petition just two

17

years earlier-further demonstrates that these misrepresentations and failures to

18

disclose were designed to confer a strategic benefit.
44.

19

The Secretary's failure to give effect to Plaintiffs' and other

20

signers' withdrawal requests also violates Article II, Sections 6 and 7 of the

21

Montana Constitution as applied to the circumstances of this case because it

22

severely burdens Plaintiffs' and other signers' constitutional right to not associate

23

with a petition sponsored by a political party with which they do not want to be

24

associated.

25

IIIII

Findings of Fact, Conclusions of Law, and Order - page 43
DDV ·2020-S56

App. 120

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 44 of 50

1

45.

Article II, Section 6 ofthe Montana Constitution provides

2

that "[t]he people shall have the right peaceably to assemble, petition for redress

3

or peaceably protest government action." Article II, Section 7 provides that "[n]o

4

law shall be passed impairing the freedom of speech or expression." Like the

5

First Amendment, these provisions protect "the unfettered interchange of ideas

6

for the bringing about of political and social changes desired by the people."

7

Darn v. Bd. of Trs. ofBillings Sch. Dist. No.2, 203 Mont. 136, 145,661 P.2d

8

426,431 (1983).

9

46.

Activities that involve associating to promote political

10

preferences, like signing a petition, arc protected conduct under the First

11

Amendment. See, e.g., Clingman v. Beaver, 544 U.S. 581, 586 (2005); Fila

12

Foods, LLC v. City ofSeaTac, 179 Wn. App. 401, 406, 319 P.3d 817,819 (2014)

13

(concluding that "an individual expresses a view on a political matter by signing

14

an initiative petition," and "this expression of a view implicates the signer's First

15

Amendment rights").

16

47.

Under Montana law, state action that burdens fundamental

17

rights, like those protected by Sections 6 and 7 of Article II of the Montana

18

Constitution, must be justified by a compelling state interest narrowly drawn.

19

See, e.g., Montana Envtl. Info. Ctr. v. Dep't ofEnvtl. Quality, 1999 MT 248,63,

20

296 Mont. 207, 225, 988 P.2d 1236, 1246 (holding that strict scrutiny applies to

21

statutes infringing the rights protected under Article II of the Montana

22

Constitution); State v. Lilburn, 1993 ML 78, *4 (Mont. Dist. Ct. 1993)

23

("Significant interference with First Amendment rights may be allowed only if a

24

compelling government interest is shown, and all such infringements will be

25

subject to close judicial scrutiny.") (citation omitted).

Findings of Fact, Conclusions of Law, and Order - page 44

DDV-2020-856

App. 121

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 45 of 50

48.

1

The right to associate is burdened not only when a law

2

harms a voter's ability "to associate in the electoral arena to enhance their

3

political effectiveness as a group," Anderson v. Celebrezze, 460 U.S. 780, 793

4

(1980), but also when a voter's "right not to associate" is harmed, Cal.

5

Democratic Party v. Jones, 530 U.S. 567, 574 (2000) (emphasis added); See also

6

Kusper v. Pontikes, 414 U.S. 51, 57 (1973) (finding First Amendment rights

7

burdened when a statute '" lock[ ed]' the voter into his pre-existing party

8

affiliation for a substantial period oftime").
49.

9

The Secretary's imposition of an arbitrary deadline for

10

withdrawal requests, set well before the MTGOP's involvement was revealed,

11

imposes a severe burden on Plaintitfs' associational rights in this case by

12

"locking in" their association-and the consequcnces that flow from such

13

association under statute-in support of a petition they no longer support, and a

14

political party with whom they do not want to affiliate and whose political

15

effectiveness they do not want to advance. See Kusper, 414 U.S. at 58 (holding

16

statute prohibiting voter from changing pre-existing party affiliation substantially

17

abridged her ability to associate effectively with the party of her choice).

18

50.

The severity of this burden imposed by the Secretary's

19

deadline and refusal to credit the withdrawal requests at issue in this case is

20

heightened by the fact that Plaintiffs' association was "locked in" before they had

21

any way to know that they were affiliating with, and advancing the interests of,

22

the MTGOP.

23

51.

The Secretary's refusal to give effect to Plaintiffs'

24

withdrawal requests in this case is not justified by any weighty state interest-

25

much less one narrowly tailored to advance a compelling state interest.

Findings of Fact, Conclusions of Law, and Order - page 45
DDV-2020-856

App. 122

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 46 of 50

52.

1

No statute, regulation, or policy statement requires that

2

requests for withdrawal from political party qualification petitions contain the

3

requestor's signature, nor does any statute afford the Secretary the authority to

4

require signatures or prescribe what forms of signatures are sufficient.
53.

5

All that is required is that the requestor clearly express their

6

intent to withdraw by identifying the petition at issue. See Ford v. Mitchell, 103

7

Mont. 99, 61 P.2d 815, 822-23 (1936). The withdrawal forms at issue-which all

8

contain an unambiguous request to withdraw their petition signature, include the

9

requestor's name, address, and contact information, and include a signature

10

captured electronically through the DocuSign p1atform--easily satisfy this

11

requirement. 9

12

54.

Assuming that it was necessary for a voter to provide a

13

signature in order to withdraw from a political party qualification petition, the

14

submission of withdrawal requests to the Secretary are not "transactions"

15

between the voter and the Secretary under the Montana Uniform Electronic

16

Transactions Act, Section 30-18-101, MeA (UETA) that require the Secretary's

17

consent to the use of electronic signatures. Withdrawing from a political party

18

qualification petition is a unilateral act by the voter, not a "transaction" between

19

the voter and the Secretary.

20

55.

Taking it one step further, if one assumes that political party

21

qualification petition withdrawals require a voter's signature and that such

22

withdrawals are "transactions" between the voter and the Secretary for purposes

23

ofUETA, the context, surrounding circumstances, and the parties' conduct,

24

specifically the failure to the Secretary to promulgate or announce the deadline

25
Section 13-1O-601(2)(c), MCA, delegates to county election administrators the authority to verify signatures on
political party qualification petition, like the process used for other ballot issues under §§ 13-27-303 through -306,

9

MeA. The statute does not delegate to the Secretary any authority to verifY signatures.

Findings of Fact, Conclusions of Law, and Order - page 46
DDV-2020-856

App. 123

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 47 of 50

1

for withdrawals and that certain requests for withdrawal would not be accepted,

2

all demonstrate that the Secretary consented to receiving withdrawals from the

3

Green Party political party qualification petition through electronic means.

4

Accordingly, electronic signatures satisfY any purported signature requirement.

5

See §§ 30-18-105, -106, MCA.

6

56.

The Secretary's previously undisclosed opposition to the use

7

of electronic signatures would also impose an unconstitutional burden as applied

8

to the signers who, in the absence of contrary guidance from the Secretary,

9

electronically signed their withdrawal request in the middle of a global pandemic.

10

Failing to honor the withdrawal forms at issue here serves no state interest.

11

Courts and other institutions have consistently recognized the security and

12

validity ofthe DocuSign platform for electronic signatures across a wide variety

13

of contexts. The DocuSign platform used in this case collected the same

14

identifYing information that would be collected by paper forms promulgated by

15

the Secretary for withdrawals from other kinds of petitions, and its security,

16

tracking, and its additional auditing features more than adequately serve any

17

interest in preventing and investigating fraudulent activity.

18

57.

As with the Secretary's adoption of a deadline for the

19

submission of withdrawal forms, the Secretary's adoption of a rule or policy

20

banning the submittal of electronic signatures was done without public input or

21

proper notice to the public. Mont. Const. Art. II, § 8. No statute grants the

22

Secretary the authority to adopt such a rule or policy. The Secretary has not

23

properly adopted such a rule or policy.

24

IIIII

25

IIIII

Findings of Fact, Conclusions of Law. and Order - page 47

DDV-2020-856

App. 124

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 48 of 50

58.

1

The Secretary's adoption of a rule or policy barring

2

submittals of electronic signatures midway through this petition-gathering

3

process is arbitrary and capricious.

4

59.

When Plaintiffs' and other Montanans' valid and timely

5

withdrawal requests are given effect, the petition fails to meet the requirements of

6

Section 13-10-601(2), MCA. The statute requires that a political party

7

qualification petition contain: (1) an overall signature count of the lesser of"5%

8

or more of the total votes cast" for the last-elected governor, or 5,000 registered

9

voters; and (2) a threshold number of signatures for each state house district in at

10

least 34 districts. See Section 13-1 0-601 (2)(b), MCA.
60.

11

After accounting for the valid withdrawal forms set out in

12

Plaintiffs' Exhibits 4 and 5, the Petition contains signatures above the thresholds

13

set by the political party qualification statute in no more than 33 House Districts,

14

as set forth in Plaintiffs' Exhibit 7.

15
16

Based on the foregoing findings offact and conclusions of law, the
Court enters the following

17

ORDER
1.

18

The Secretary's motion for partial summary judgment on the

19

acceptance of electronic signatures is DENIED. MDP's cross-motion for

20

summary judgment regarding electronic signatures is GRANTED.

21

2.

The withdrawal requests are valid under Montana law;

22

3.

The Secretary's failure to accept and honor these withdrawal

23

requests violates Mont. Const. Art. II, §§ 6 and 7;

24

IIIII

25

IIIII

Findings of Fact, Conclusions of Law, and Order-page 48
DDV-2020-856

App. 125

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 49 of 50

4.

1

The Petition fails to satisfy the requirements of section

2

13-1 0-60 1(2)(b), MCA; in that the petition does not satisfy the requircmcnt that

3

the signatures come in sufficient numbers from at least 34 different legislative

4

House Districts; and

s.

5

6

enjoined from implementing or giving any effect to the Petition.

7

MEMORANDUM

8
9

The Secretary and all persons acting under his authority are

It was prcsented to the Court that this is a unique situation, not
likely to re-occur. Indeed, Dana Corson, the Secretary's Election Director,

10

testified he had never encountered anything quite like the situation presented by

11

this case. Further, the statutes governing the qualifications for minor political

12

parties are new and untested, having been passed by the Legislature in 2019 and

13

becoming effective only on October 1, 2019. As the various entities involved in

14

these kinds of election processes become familiar with these statutes'

15

requirements, the kinds of difficulties encountered in this case might be avoided.

16

Nonetheless, the Court concludes that the Secretary's ad hoc

17

decision-making with regards to the petition defeats the purpose ofthese statutes.

18

The Secretary took steps not authorized by statute or regulation, made decisions

19

"on-the-fly" and without public input or knowledge as to the deadline and

20

process for withdrawing signatures from the petition, and made those decisions

21

based on documents not made public, even during this hearing. Such actions fly

22

in the face of well-established principles for open governmental action requiring

23

public participation and knowledge. The remedy for these actions is to set aside

24

the Secretary's decisions as set forth above.

25

IIIII

Findings of Fact. Conclusions of Law, and Order - page 49
DDV·2020-856

App. 126

Case 6:20-cv-00062-DLC Document 1-4 Filed 08/11/20 Page 50 of 50

It was represented by the Secretary that he will be making

1
2

proposals to the next legislature about improvements and clarification to these

3

statutes. The Court fully supports this effort.

4

DATED this L

5

J~;;::I:t£P

6
7

District Court Judge

8
9

10
11
12

day of August 2020.

cc:

Peter Michael Meloy, (via email to:mike@meloylawfirm.com)
Mathew Gordon, (via email to:mgordon@perkinscoie.com)
Austin James, (via email to: Austin.james@mt.gov)
Matthew T. Meade, (via email to:matt@bigskylaw.com)

JPRlLmlDDV-2020-856 Montana Demo\;ralic Party. et a!. v. Slate of Montana - Findings of Fact,. Conclusioll5 of Law, and Order.doc

13
14

15
16
17
18
19
20
21
22

23
24

25

Findings of Fact, Conclusions of Law, and Order - page 50
DDV-2020-856

App. 127

